      AUDIT OF OFFICE OF
      JUSTICE PROGRAMS
   GRANTS AWARDED TO THE
CITY OF ALEXANDRIA, LOUISIANA



     U.S. Department of Justice
   Office of the Inspector General
            Audit Division

    Audit Report GR-40-12-002
           August 2012
      AUDIT OF OFFICE OF JUSTICE PROGRAMS
   GRANTS AWARDED TO THE CITY OF ALEXANDRIA,
                  LOUISIANA

                        EXECUTIVE SUMMARY

     The Office of the Inspector General, Audit Division, has
completed an audit of Office of Justice Programs (OJP), Weed and
Seed grants awarded to the City of Alexandria, Louisiana.

      The Weed and Seed strategy aims to prevent, control, and
reduce violent crime, criminal drug related activity, and gang activity.
The Weed and Seed strategy is a community-based comprehensive
multi-agency approach. Four elements make up the two-pronged
Weed and Seed strategy – law enforcement; community policing;
prevention, intervention and treatment; and neighborhood restoration.
“Weeding” activities are directed toward reducing crime while also
complementing the “seeding” activities that provide direct services to
residents. As shown in Exhibit I, the City of Alexandria was awarded
$620,221 under the Weed and Seed program since 2006.

        Exhibit I: Weed and Seed Grants Awarded to
              the City of Alexandria, Louisiana
     Award          Award           Award        Award
    Number        Start Date      End Date      Amount
2006-WS-Q6-0201          06/01/2006       12/31/2007       $175,000
2008-WS-QX-0195          05/01/2008       10/31/2009       $146,330
2009-WS-QX-0141          05/01/2009       10/31/2010       $141,985
2010-WS-QX-0013          05/01/2010       08/30/2011       $156,906
                           Total                           $620,221
Source: Office of Justice Programs

      A Weed and Seed Steering Committee was responsible for
implementing the Weed and Seed strategy, approving the grant
budgets, maintaining oversight and direction of all expenditures, and
completing required reports. As the fiscal agent for the Weed and
Seed grants, the city is responsible for ensuring that grant funds are
used appropriately and that the goals and objectives of the grants are
met. City officials told us the Weed and Seed Steering Committee
made all the hiring decisions and the city’s program responsibility
consisted of making payments for program expenses.




                                      i
Audit Results

      The purpose of the audit was to determine whether the City of
Alexandria used grant funds for costs that were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and
terms and conditions of the grants, and whether the city met or was
on track to meet the goals and objectives outlined in the grant
programs and applications.

       The objectives of the audit were to determine whether the City
of Alexandria complied with essential grant conditions pertaining to:
(1) internal controls, (2) grant drawdowns, (3) grant expenditures,
(4) budget management and control, (5) matching costs, (6) property
management, (7) financial and grant progress reports, (8) grant goals
and accomplishments, and (9) monitoring subrecipients.

      We found that the City of Alexandria:

  •   charged $23,298 in unallowable costs to the grants,

  •   did not use $87,133 in grant funds awarded for three grants,

  •   charged $98,359 in unsupported personnel and police overtime
      costs to the grants including $2,847 in 2010 grant costs not
      claimed for reimbursement from OJP,

  •   did not provide or could not show that it had provided $102,223
      in grant matching costs including $17,213 for the 2010 grant for
      which none of the federal funds had been drawn down from OJP,

  •   could not account for $1,631 in property items bought with grant
      funds because it did not have a system for tracking those items,

  •   submitted late and incorrect financial reports to OJP,

  •   submitted late grant progress reports to OJP,

  •   did not meet or could not show that it met most of the grant
      goals and accomplishments we tested, and

  •   did not adequately monitor subrecipients to ensure they met
      grant requirements.




                                   ii
      Based on our audit results we make 12 recommendations to
address dollar-related findings and 5 recommendations to improve the
management of Department of Justice (DOJ) grants. These are
discussed in detail in the Findings and Recommendations section of the
report. Our audit objectives, scope, and methodology are discussed in
Appendix 1.




                                  iii
                           TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
     Background.......................................................................... 1
     Audit Approach ..................................................................... 2
FINDINGS AND RECOMMENDATIONS ....................................... 4
     Internal Controls .................................................................. 4
          Financial Management System.......................................... 4
          Single Audits .................................................................. 5
          Other Internal Control Matters .......................................... 8
     Drawdowns .......................................................................... 8
          Grant Funds Drawn Down After the Grant Ended................. 9
          Grant Funds Not Used ..................................................... 9
     Grant Expenditures .............................................................. 10
          Independent Contractor Payments ................................... 10
          Police Overtime Payments ............................................... 13
     Budget Management and Control ........................................... 13
     Matching Costs .................................................................... 14
     Property Management .......................................................... 19
     Grant Reports ..................................................................... 20
          Financial Reports ........................................................... 20
          Progress Reports ........................................................... 21
     Grant Goals and Accomplishments ......................................... 22
     Monitoring Subrecipients ...................................................... 27
     Conclusion .......................................................................... 28
     Recommendations ............................................................... 29
APPENDIX 1 - OBJECTIVES, SCOPE, AND METHODOLOGY ....... 31
APPENDIX 2 - SCHEDULE OF DOLLAR-RELATED FINDINGS..... 33
APPENDIX 3 - INDEPENDENT CONTRACTOR PAYMENTS
             NOT SUPPORTED BY TIMESHEETS .................... 34
APPENDIX 4 - POLICE OVERTIME PAYMENTS NOT
             SUPPORTED BY DAILY ACTIVITY REPORTS ...... 35
APPENDIX 5 - THE CITY OF ALEXANDRIA'S RESPONSE TO
             THE DRAFT AUDIT REPORT .............................. 36
APPENDIX 6 - OFFICE OF JUSTICE PROGRAMS' RESPONSE
             TO THE DRAFT AUDIT REPORT ......................... 44
APPENDIX 7 - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
             AND SUMMARY OF ACTIONS NECESSARY TO
             CLOSE THE REPORT.......................................... 50
                                     INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General, Audit
 Division, has completed an audit of Weed and Seed grants, awarded by the
 Office of Justice Programs (OJP), to the City of Alexandria, Louisiana. The
 Weed and Seed strategy is a comprehensive, coordinated, and collaborative
 response to resolving neighborhood problems identified during the
 development of a needs assessment. The process of developing the strategy
 begins with convening a steering committee, identifying community
 partners, notifying the United States Attorney, and collaborating on a
 strategy to address those problems. The role of the Weed and Seed
 Steering Committee was to implement the Weed and Seed strategy, approve
 the grant budgets, maintain oversight and direction of all expenditures, and
 complete any required reports.

      As shown in Exhibit 1, since 2006 the City of Alexandria was awarded
 $620,221 to implement Weed and Seed activities.

             Exhibit 1: Weed and Seed Grants Awarded to
                   the City of Alexandria, Louisiana
       Award           Award          Award          Award
      Number        Start Date       End Date        Amount
 2006-WS-Q6-0201          06/01/2006          12/31/2007    $175,000
 2008-WS-QX-0195          05/01/2008          10/31/2009    $146,330
 2009-WS-QX-0141          05/01/2009          10/31/2010    $141,985
 2010-WS-QX-0013          05/01/2010          08/30/2011    $156,906
                             Total                          $620,221
Source: Office of Justice Programs

       As the fiscal agent for the grants, the city is responsible for ensuring
 that grant funds are used appropriately and that the goals and objectives of
 the grants are met. City officials told us the Weed and Seed Steering
 Committee made all the hiring decisions and the city’s role was limited to
 making payments for program expenses.

 Background

       The City of Alexandria, located in Rapides Parish, Louisiana, lies on the
 south bank of the Red River near the geographic center of the state. The
 city and the surrounding metropolitan area have a population of 153,922.

       Since 1984, OJP has provided federal leadership in developing the
 nation's capacity to prevent and control crime, improve the criminal and


                                          1
juvenile justice systems, increase knowledge about crime and related issues,
and assist crime victims.

Audit Approach

      The purpose of this audit was to determine whether the City of
Alexandria used grant funds for costs that were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant; and whether the city met or was on track to meet
the goals and objectives outlined in its grant programs and applications.

       The objectives of the audit were to determine whether the City of
Alexandria complied with essential grant conditions pertaining to:
(1) internal controls, (2) grant drawdowns, (3) grant expenditures,
(4) budget management and control, (5) matching costs, (6) property
management, (7) financial and grant progress reports, (8) grant goals and
accomplishments, and (9) monitoring subrecipients.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the grant award documents, OJP Financial
Guide, Code of Federal Regulations (CFR), and Office of Management and
Budget (OMB) Circulars. We tested the City of Alexandria’s:

  •   internal controls to identify policies, methods, and procedures
      designed to ensure the city and the Weed and Seed program met the
      fiscal and programmatic requirements and the goals and objectives of
      the grants;

  •   grant drawdowns to determine whether grant drawdowns were
      adequately supported and if the City of Alexandria managed grant
      receipts in accordance with federal requirements;

  •   grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;

  •   budget management and control to identify any budget deviations
      between the amounts budgeted and the actual costs for each cost
      category;

  •   matching costs to determine if the City of Alexandria provided the
      required matching share of grant costs;


                                      2
  •   property management to determine if property items acquired with
      grant funds are tracked in a system of property records, adequately
      protected from loss, and used for grant purposes;

  •   financial and grant progress reports to determine if those reports
      were accurate and submitted when they were due;

  •   grant goals and accomplishments to determine if the City of
      Alexandria and the Weed and Seed project met or was on track to
      meet the goals outlined in the grant programs and applications; and

  •   monitoring subrecipients to determine whether the City of
      Alexandria took appropriate steps to ensure that subrecipients met the
      fiscal and programmatic requirements of the grants.

       In conducting our audit, we performed sample testing in the areas of
drawdowns, grant expenditures, matching costs, property management, and
grant goals and accomplishments. In addition, we reviewed the internal
controls for the financial management system, the timeliness and accuracy
of financial and progress reports, evaluated progress toward grant goals and
accomplishments, and the monitoring of subrecipients.




                                     3
              FINDINGS AND RECOMMENDATIONS

      Our audit determined that the City of Alexandria: (1) charged
      $23,298 in unallowable costs to the grants; (2) did not use $87,133 in
      grant funds awarded from three grants; (3) charged $98,359 in
      unsupported personnel and police overtime costs to the grants
      including $2,847 in 2010 grant costs the city planned to claim for
      reimbursement from OJP; (4) did not provide, or could not show that it
      had provided, $102,223 in grant matching costs including $17,213 for
      the 2010 grant for which none of the federal funds had been drawn
      down from OJP; (5) could not account for $1,631 in property items
      bought with grant funds; (6) submitted late and incorrect financial
      reports to OJP; (7) submitted late grant progress reports to OJP;
      (8) did not meet or could not show that it met most of the grant goals
      and objectives we tested; and (9) did not adequately monitor
      subrecipients to ensure they met grant requirements. Based on our
      audit, we make 12 recommendations to address dollar-related findings
      and 5 recommendations to improve the management of DOJ grants.

Internal Controls

       We reviewed the City of Alexandria’s financial management system,
policies and procedures, and Single Audit report to assess the risk of non-
compliance with laws, regulations, guidelines, and terms and conditions of
the grants. We also interviewed city officials responsible for purchasing and
grant accounting and observed grant management activities to further
assess risk.

Financial Management System

       The City of Alexandria’s financial management system included
applications for payroll, accounting, and purchasing, and provided adequate
separation of duties, separate accounting for each grant, and traceability to
supporting documentation. The city appeared to have an adequate system
of internal controls to ensure compliance with most of the requirements of
the grant program. However, city officials told us they did not track
property items bought with Weed and Seed grant funds because the items
were not purchased with city funds. This is discussed in more detail in the
accountable property section of this report.




                                      4
Single Audits

       According to Office of Management and Budget (OMB) Circular A-133,
Audits of States, Local Governments, and Non-Profits, the City of Alexandria
is required to have a Single Audit performed annually with the report due no
later than 9 months after the end of the fiscal year. The City of Alexandria’s
fiscal year is from May 1 through April 30. The city’s 2009, 2010, and 2011
Single Audit reports were completed by the due dates.

       We reviewed the FYs 2009, 2010, and 2011 Single Audit reports that
identified the following audit findings, which could affect DOJ grants, and the
city’s response to those findings.

   •   Finding 2009-01 – Centralized Recordkeeping for Grants

       Reimbursement requests for several grants were not filed timely and
       the accounting department had no knowledge of the grant details. For
       one grant, the police department submitted a request for
       reimbursement in January 2009. Six months later, the city had not
       received reimbursement because the accounting department was not
       aware the request had been filed and was unable to monitor the
       receipt of the funds. For another grant, the police department
       purchased a vehicle, but did not request reimbursement from grant
       funds. In a third example, requests for reimbursement, which are
       normally submitted in December, were not submitted until late April.
       Auditors recommended that the city designate a central location and
       individual responsible for all state and federal grants.

       In response to the audit, the city said it would notify all city
       departments that they must notify the accounting department of the
       existence of any grants and when to expect reimbursement from the
       granting authority. However, this finding was repeated in the FYs
       2010 and 2011 audits.

   •   Finding 2009-07 – Cash Deposits

       Cash receipts from building permits and the zoo were not being
       deposited timely at the city’s customer service center. Approximately
       one-half of the receipts were posted to the wrong income account in
       the accounting records. Cash receipts were being kept in a locked
       drawer until it was convenient to transfer the funds to the customer
       service center. The customer service center made only nine cash
       deposits during the fiscal year. Auditors recommended that all

                                       5
    deposits be made daily when practical and that the revenues be posted
    to the correct income account. Incorrect recording of income and
    expenses could affect the accounting for DOJ grants.

    In response to the audit, the city stated that it reminded city
    departments of the importance of frequent deposits and to safeguard
    funds against theft.

•   Finding 2010-01 – Centralized Recordkeeping for Grants

    Similar to the 2009 audit, auditors had difficulty identifying grant
    revenues and obtaining supporting documentation from various city
    departments. Because of an increase in the amount of grant awards
    received by the city, the condition had deteriorated and auditors had
    to expend significant effort to identify grant awards and expenditures.
    Auditors again recommended that the city identify a central location
    and individual responsible for control and accounting for all state and
    federal grants.

    In its response to the audit, the city stated that budgetary constraints
    prevented it from adding such a position at this time, and that the
    budget and accounting departments will work closely with grantee
    divisions to track grant reporting. This finding is also in the FYs 2009
    and 2011 audits.

•   Finding 2010-03 – Theft Allegation

    In June 2010 the city advised the independent financial auditors that
    an internal investigation was currently in progress regarding possible
    misappropriation of funds the city received for rental payments. The
    alleged misappropriations occurred over a period of several months.
    The city’s police department investigated the matter and formally
    charged and arrested an individual. Auditors advised the city to report
    the alleged misappropriation to the Office of the Louisiana Legislative
    Auditor, local Sheriff, and the District Attorney. The auditors agreed
    with the city’s plan to engage a company to review the city’s control
    procedures.

    In response to the audit, the city reported the allegation to the local
    sheriff and district attorney and engaged a company to perform
    procedures to determine if new controls are adequate. The 2011
    financial audit discussed later includes a theft allegation finding
    pertaining to funds misappropriated from the police evidence room.

                                     6
•   Finding 2011-01 – Centralized Recordkeeping

    Similar to the 2009 and 2010 audits, auditors had difficulty identifying
    grant revenues and supporting documentation from various city
    departments. Auditors again recommended that the city designate a
    central location and individual for control and accounting purposes of
    all state and federal awards.

    In response to the audit, the city stated that budgetary constraints
    prohibited adding such a position, but the budget and accounting
    departments would work closely with the grantee divisions to track
    grant reporting.

•   Finding 2011-03 – Theft Allegation

    In December 2010 the city advised the independent financial auditors
    that an internal investigation was in progress regarding possible
    misappropriation of cash funds from the evidence room located at the
    police department. The alleged theft occurred over a period of several
    months within the audit period. The city advised the auditors that the
    Louisiana State Police and the Alexandria Police Department, with
    cooperation from the alleged responsible individual, investigated the
    matter and formally initiated charges. In June 2011 the city received
    $19,263 as restitution for the misappropriated funds. Auditors advised
    the city to communicate the allegation to the Office of the Louisiana
    Legislative Auditor, the local Sheriff, and the District Attorney, all of
    whom were notified.

    In response to the audit, the city stated that new controls had been
    implemented in the police evidence room and the controls were being
    followed.

•   Finding 2011-05 – Purchasing Procedures

    During audit tests of disbursements, auditors noted several purchases
    for which requisitions were dated after the invoice, indicating the
    possibility that purchasing procedures were circumvented. Auditors
    recommended that the city remind employees of the purchasing
    policies.




                                     7
      In response to the audit, the city stated that it would remind Division
      Directors of the importance of following purchasing procedures and
      forward a copy of the procedures to each department.

Other Internal Control Matters

       As the fiscal agent for the Weed and Seed grants the city is
responsible for ensuring that grant funds are used appropriately and that the
goals and objectives of the grants are met. City officials told us the Weed
and Seed Steering Committee made all the hiring and program decisions and
the city just paid the bills. City officials also told us they were concerned
about whether the Weed and Seed project could deliver the services
described in their grant applications and budgets. City officials believed they
had to agree to be the fiscal agent because not doing so could mean a loss
of revenue to the city. City officials stated that for several years the city
tried but was not successful in finding another organization to act as the
fiscal agent for the Weed and Seed grants.

       In June 2010, OJP designated the city as a “high risk” grant recipient
because of delinquent financial and grant progress reporting and because
the city failed to adequately respond to OJP’s requests for information on
grant program implementation. According to OJP’s grants management
system, grant funds were frozen 14 times because of late reporting. As of
April 2012, the City of Alexandria remained on the DOJ list of high-risk
grantees. 1

Drawdowns

      The OJP Financial Guide, Part III, Chapter 1, requires that recipients
time their drawdown requests to ensure that federal cash-on-hand is the
minimum needed for disbursements to be made immediately or within a few
days. Grant recipients have 90 days after the end of the grant award period
to draw down grant funds for costs obligated during the grant award period.
An obligation occurs when funds are encumbered, such as with a valid
purchase order or requisition to cover the cost of purchasing an item up to
the last day of the grant award period. Any funds not obligated within the
grant award period will lapse and revert to the awarding agency. The



      1
            Under the DOJ high risk grantee program, a grantee may be designated as high
risk if it has a history of unsatisfactory performance, is not financially stable, has an
inadequate financial management system, has not conformed to the terms and conditions of
previous awards, or is otherwise not responsible.

                                           8
obligation deadline is the last day of the grant award period unless otherwise
stipulated.

       Grantee officials told us that drawdowns were based on grant
expenditures in the accounting records. For each grant, we compared
drawdowns to expenditures and found that for the 2008 and 2009 grants the
city drew down slightly more than it had in grant expenditures. Because the
differences were immaterial, we make no recommendation.

Grant Funds Drawn Down After the Grant Ended

       The 2006 Weed and Seed grant ended December 31, 2007, and the
city had until March 30, 2008, to draw down funds for costs obligated during
the grant award period. The final financial report for the grant included
grant costs not drawn down. After the 90-day closeout period ended OJP
notified the city that it had not drawn down the funds. In May 2008 the city
made two additional drawdowns totaling $84,468 and OJP approved the late
drawdowns. However, we question $19,804 of the final drawdowns as
unallowable because the funds were spent for costs obligated after the grant
ended on December 31, 2007. We asked a city official about the late
drawdowns and he told us that he could find no record that OJP had
extended the grant award period. OJP confirmed that the grant was not
extended beyond December 31, 2007. We recommend that OJP remedy the
$19,804 spent on grant costs not obligated during the award period.

      As discussed later in the Grant Reporting section, the final financial
report for the 2006 grant was incorrect because it included $19,804 in
expenditures that were obligated after the end of the grant award period.

Grant Funds Not Used

      During our testing of drawdowns, we noted that the city did not use all
the grant funds awarded under the FYs 2006, 2008, and 2009 Weed and
Seed grants. Grant funds not used are shown in Exhibit 2.

                        Exhibit 2: Grant Funds Not Used
                              Grant Funds    Grant Funds     Grant Funds
       Grant Number
                               Awarded          Used          Not Used
   2006-WS-Q6-0201                $175,000       $134,335          $40,665
   2008-WS-QX-0195                $146,330       $122,044          $24,286
   2009-WS-QX-0141                $141,985       $119,803          $22,182
          Total                  $463,315       $376,182          $87,133
  Source: OJP records


                                       9
      After these grants ended, OJP deobligated the unspent funds. The
Weed and Seed site coordinator told us this occurred because these grant
projects started in May and June, but the city did not notify him about the
awards until July or August, which is a delay of about 2 months. However,
OJP extended each of these grants by an additional 6 months to give the city
more time to expend the funds.

       The 2010 Weed and Seed grant (Grant Number 2010-WS-QX-0013),
ended on August 30, 2011. However, as of February 6, 2012, none of the
$156,906 in grant funds from the 2010 grant had been drawn down. 2 On
February 7, 2012, we contacted OJP about the status of this grant and we
were told that the process of closing out this grant is on hold pending the
completion of our audit. Once the closeout is complete the city will be
allowed to draw down any grant funds due to them. As discussed later in
this report, we identified $20,060 in unsupported matching costs ($17,213),
police overtime ($334), and independent contractor payments ($2,513)
recorded in the city’s accounting records for the 2010 grant. We
recommend that OJP remedy the $20,060 in unsupported costs before
permitting the city to draw down any of the grant funds.

Grant Expenditures

      According to the OJP Financial Guide, Part III, Chapter 7, allowable
costs are those identified in Office Management and Budget (OMB) circulars
and the grant program’s authorizing legislation. In addition, costs must be
reasonable and permissible under the specific guidance of the grants. We
reviewed a sample of personnel costs, other direct costs, and property items
charged to grant funds.

Independent Contractor Payments

       Personnel costs charged to the grants include payments to
independent contractors who worked for the Weed and Seed projects
and overtime for police officers. The Weed and Seed Site Coordinator, who
is also an independent contractor, reviewed and approved the other
independent contractors’ timesheets. The city conducted a second review of
the timesheets before they were approved for payment.




     2
         At the time of our audit, grant expenditures for the 2010 grant were $64,235.



                                            10
      We obtained a list of 33 Weed and Seed contract employees and
traced their positions and salaries to the grant budgets approved by OJP. 3
We also traced a judgmental sample of contractor personnel costs for these
employees to payroll records, timesheets, and other supporting documents. 4

      2006 Weed and Seed Grant – For the 2006 Weed and Seed grant
(Grant Number 2006-WS-Q6-0201), we tested $23,457 in contractor
personnel costs (18 transactions) from a total of $55,880 reimbursed and
found that $20,467 (87 percent of the amount tested) in personnel costs
were not supported by timesheets. The unsupported personnel costs include
a January 17, 2007, payment of $14,000 to the former Weed and Seed Site
Coordinator. The payment appeared to be for the period August 2006
through December 2006. We recommend that OJP remedy the $20,467 in
unsupported personnel costs charged to the 2006 Weed and Seed grant.
When we briefed the city on the results of our audit a city official told us he
would find the timesheets and provide those to us, but the timesheets had
not been provided at the time of our draft report.

      2008 Weed and Seed Grant – For the 2008 Weed and Seed grant
(Grant Number 2008-WS-QX-0195), we tested $960 in independent
contractor personnel costs (9 transactions) from a total of $59,080
reimbursed and found that all the personnel costs we tested were supported
by timesheets.

      2009 Weed and Seed Grant – For the 2009 Weed and Seed grant
(Grant Number 2009-WS-QX-0141), we tested $7,310 in independent
contractor personnel costs (14 transactions) from a total of $69,179
reimbursed and found that $4,260 (58 percent of the amount tested) paid to
the Weed and Seed Site Coordinator was not supported by timesheets. The
$4,260 payment was for the pay period October 4, 2009, through
November 14, 2009. The site coordinator told us the city withheld payments
to him until a decision was made about whether the city or the Weed and
Seed Steering Committee had the authority to hire Weed and Seed
personnel. A city official told us that he believed there were timesheets to
support these costs and would provide them to us, but the timesheets had

      3
         We consider the Weed and Seed personnel to be subrecipients of grant funds
because they were hired to help achieve grant goals and objectives.
      4
          For each contract employee, we selected a judgmental sample of 1 to 4 pay
periods, depending on the employees’ length of employment, and traced the payroll invoices
for those pay periods to the employees’ timesheets and other supporting documentation.




                                           11
not been provided at the time of our draft report. We question the $4,260 in
unsupported personnel costs charged to the 2009 Weed and Seed grant and
recommend that OJP remedy the questioned costs.

       2010 Weed and Seed Grant – For the 2010 Weed and Seed grant
(Grant Number 2010-WS-QX-0013), we tested $12,664 in independent
contractor personnel costs (37 transactions) from a total of $46,938 that the
city planned to claim for reimbursement. We found that $2,513 (20 percent
of the amount tested) was not supported by timesheets. The grant ended
on August 30, 2011, but as February 6, 2012, none of the 2010 grant funds
had been drawn down. OJP told us that the grant closeout process was on
hold pending the results of our audit. After the closeout process is complete,
the city may draw down any grant funds that are due to them. We identify
the $2,513 in unsupported costs as funds to be better used and recommend
that OJP remedy the $2,513. Details of all unsupported contract personnel
costs for all of the grants we audited are presented in Appendix 3. A city
official told us he would find the missing timesheets and provide them to us,
but the timesheets had not been provided at the time of our draft report.

      We also found that some independent contractor payments were
unallowable. The city spent $171 of the 2008 grant funds and $3,323 of the
2009 grant funds for a fitness consultant hired by the Weed and Seed
Steering Committee conduct health and fitness classes for elderly residents.
We question the $171 and $3,323 as an unallowable use of grant funds
because the fitness consultant position was not approved by OJP in the grant
budgets. We recommend that OJP remedy the $3,494.




                                     12
Police Overtime Payments

      We also tested $107,907 in police officer overtime, which is 89.5
percent of the police officer overtime according to the grant accounting
records. Our test results are shown in Exhibit 3.

                     Exhibit 3: Analysis of Police Officer
                       Overtime Charged to the Grants
                                  Amount
                              According to the    Amount       Amount
            Grant
                                Accounting        Tested     Unsupported
                                  Records
     2006-WS-Q6-0201                  $41,904      $33,292        $28,103
     2008-WS-QX-0195                  $36,000      $36,000        $36,000
     2009-WS-QX-0141                  $37,073      $33,115         $6,682
     2010-WS-QX-0013                   $5,500       $5,500           $334
          Total                     $120,477     $107,907        $71,119
    Source: City of Alexandria records

      We found that $71,119 in police officer overtime (65.9 percent of the
amount tested) was not supported by daily activity reports showing officers
worked in the Weed and Seed site area and the reasons for the overtime
hours. Of the $71,119 in unsupported costs, $70,785 is from the 2006,
2008, and 2009 grants and the remaining $334 is from the 2010 grant. We
question the $70,785 as unsupported and recommend that OJP remedy
these questioned costs. The $334 of 2010 grant costs have not been
claimed for reimbursement from OJP. We identify the $334 as funds to be
better used and recommend that OJP remedy the $334.

Budget Management and Control

      According to the OJP Financial Guide, Part III, Chapter 5, grantees
may request a modification to their approved budgets to reallocate dollar
amounts among approved budget categories. Grantees must obtain
advance approval from OJP whenever: (1) a budget revision changes the
scope of the project and affects a cost category that was not included in the
original budget, or (2) cumulative transfers among approved budget
categories exceed or are expected to exceed 10 percent of the total
approved budget (10 percent rule). Failure to adequately control grant
budgets could lead to wasteful or inefficient spending of government funds.

     We compared actual grant costs to the budgets approved by OJP for
each of the grants we audited. We found no evidence of transfer of costs


                                         13
between approved budget categories that exceeded 10 percent of the award
amount for these grants.

Matching Costs

      According to the OJP Financial Guide, Part III, Chapter 3, matching
funds for a grant project must be in addition to funds that would otherwise
be available. Grant recipients must maintain accounting records that show
the source, amount, and timing of all matching contributions. Matching
contributions include cash spent for project-related costs and contributions
of equipment, supplies, volunteer work, space, and the value of goods and
services directly benefiting the grant project. According to OJP’s Office of
the Chief Financial Officer, the value of property items used as matching
contributions may not exceed the fair market value of the items and the
items may not be used as “repeat” matching contributions in subsequent
Weed and Seed grants. Grant recipients and subrecipients must maintain
records which clearly show the source, amount, and timing of all matching
contributions. The full matching share of costs must be obligated by the end
of the award period. Any matching costs not provided by the grantee must
be paid to the DOJ. For the Weed and Seed grants we audited, the city had
to provide 25 percent of the total project costs.

      We tested the matching cost transactions recorded in the city’s
accounting records to determine whether the transactions were supported by
adequate documentation and whether the values assigned to equipment,
space, and other non-cash matching contributions were reasonable. We
found that the city did not meet, or could not show that it met, the matching
requirements for the grants. Details of our testing are explained below.

      2006 Weed and Seed Grant – According to the budget for the 2006
Weed and Seed grant (Grant Number 2006-WS-Q6-0201) the city planned
to provide $58,333 of the grant project costs from local sources. The city’s
planned matching contributions for the 2006 grant are shown in Exhibit 4.




                                     14
     Exhibit 4: Planned Matching Contributions According to the
              Budget for the 2006 Weed and Seed Grant 5
                      Match to be Provided          Value
           Office equipment:
              Office desks (5 @ $400 each)                                $2,000
              Office chairs (5 @ $150 each)                                  750
              Filing cabinets (5 @ $200 each)                              1,000
              Computers, monitors, printers, and a telephone               4,826
              Total Equipment                                            $8,576
           Office space plus utilities and janitorial services           $9,864
           Office supplies                                                 $396
           Community Outreach Programs
              Weed and Seed clean up #1
              (59 persons x 4 hrs. x $7 hr. plus $500 for supplies)        2,247
              Weed and Seed clean up #2
              (30 persons x 5 hrs. x $7 hr. plus $300 for supplies)        1,560
              Family night out event
              (4 library facilitators x $100, transportation 4 x $25)       500
              Legal Services                                              2,000
              Total Community Outreach programs                          $6,307
           Computer classes
              ($25 x 10 persons x 12 classes per month x 11             $33,000
              months)
           Prime Time Book Giveaway program                                $190
           Grant Costs from local sources (planned)                     $58,333
          Source: Grant budget prepared by the Weed and Seed Steering Committee


      However, the city drew down only $134,335 of the $175,000 award
before the grant expired. The remaining funds were not used. Based on the
amount drawn down, which is the 75 percent federal share of the grant
project costs, the city had to provide $44,778 in matching contributions,
which is its 25 percent share of the project costs [($134,335 divided by 75
percent) times 25 percent].

      According to the accounting records for the 2006 grant, the city
provided $58,333 in matching contributions. However, the matching costs
recorded in the accounting records for all the grants we audited were the
budgeted amounts not the actual amounts. The city’s grant accountant told
us she used the grant budgets prepared by the Weed and Seed Steering
Committee to create accounting records for matching contributions to the
grants.



     5
         The amounts for the Weed and Seed clean up events were calculated incorrectly.



                                             15
       We tested five matching transactions totaling $57,937, which is 99.3
percent of the matching contributions recorded in the city’s accounting
records for the 2006 Weed and Seed grant. We examined office equipment
and space contributed to the grant project and considered that the $18,440
($8,576 plus $9,864) recorded in the accounting records for those items was
reasonable. However, the Weed and Seed Site Coordinator could not
provide adequate documentation to support matching contributions for
community outreach programs ($6,307), computer classes provided to
citizens ($33,000), and a book give-away program ($190). We asked the
Weed and Seed Site Coordinator to provide sign-in logs, attendance records,
or other supporting documentation for these activities, but he told us he
could not produce these records. Consequently, the city could demonstrate
that it provided only $18,440 of the $44,778 required matching
contributions. We question the $26,338 ($44,778 minus $18,440) in
unsupported matching costs for the 2006 Weed and Seed grant and
recommend that OJP remedy these questioned costs.

       During our testing of matching contributions we noted that office
furniture contributed to the 2006 Weed and Seed grant project consisted of
five office desks valued at $400 each, five office chairs valued at $150 each,
and five filing cabinets valued at $200 each. These were the values the
Weed and Seed Steering Committee assigned to these items when it
prepared the 2006 grant budget. We examined these office furniture items
and other items of office equipment and, in our judgment, the values
assigned to these items were fair. However, the city also used these
furniture items and other office equipment items as matching contributions
to the 2008 and 2009 Weed and Seed grants. The Weed and Seed Site
Coordinator told us the furniture was on loan from the city and was used as
matching contributions for each of the grants.

       We contacted OJP officials about the furniture items and we were told
that the total value of matching items allocated between the grants could
not exceed their fair market value. We also reviewed documentation
showing that OJP told the city that “repeat” items of office furniture and
equipment could not be used as matching contributions to the grant
projects. We confirmed with the Weed and Seed site coordinator that the
office furniture and equipment used as matching contributions in the 2008
and 2009 grants were the same items used as matching contributions in the
2006 grant. Consequently, the office furniture and other office equipment
items may only be used as a matching contribution for the 2006 Weed and
Seed grant.




                                      16
      2008 Weed and Seed Grant – According to the budget for the 2008
Weed and Seed grant (Grant Number 2008-WS-QX-0195) the city had to
provide $48,777 of the grant project costs from local sources.

      However, the city drew down only $122,044 of the $146,330 award
before the grant expired. The remaining funds were not used. Based on the
amount drawn down, the city had to provide $40,681 in matching
contributions [($122,044 divided by 75 percent) times 25 percent].
However, the accounting records show the city provided $48,785 in
matching contributions. 6

       We tested seven matching transactions totaling $48,426, which is 99.2
percent of the matching contributions for the 2008 Weed and Seed grant.
We found that the city contributed office space, utilities, and janitorial
services valued at $10,410 to the 2008 grant. We determined that five
desks, five chairs, and five filing cabinets valued at $3,750 and other office
equipment items valued at $4,826 were not allowable as matching
contributions to the 2008 grant because those items were used as matching
contributions to the 2006 grant. 7 The Weed and Seed site office could not
provide adequate documentation to support other matching transactions for
community outreach programs ($9,250), legal services ($2,000), computer
classes ($18,000), and a book give-away program ($190). We asked the
Weed and Seed Site Coordinator to provide sign-in logs, attendance records,
or other supporting documentation for these activities and he told us he
could not produce such records. Consequently, the city could demonstrate
that it provided only $10,410 of the $40,681 required matching
contributions. We question the $30,271 ($40,681 minus $10,410) in
unsupported matching costs for the 2008 Weed and Seed grant and
recommend that OJP remedy the questioned costs.

      2009 Weed and Seed Grant – According to the budget for the 2009
Weed and Seed grant (Grant Number 2009-WS-QX-0141) the city had to
provide $47,328 of the grant project costs from local sources.

      However, the city drew down only $119,803 of the $141,985 award
before the grant expired. The remaining funds were not used. Based on the


      6
         The matching transactions in the accounting records were the budgeted amounts
not the actual amounts.
      7
         The $4,826 in office equipment included computers, monitors, a printer, and a
telephone.



                                           17
amount the city drew down, it had to provide only $39,934 in matching
contributions [($119,803 divided by 75 percent) times 25 percent].

        We tested five matching transactions totaling $46,986, which is 99.2
percent of the $47,345 in matching contributions recorded in the accounting
records for the 2009 Weed and Seed grant. We did not test one $359
transaction for supplies. We found that the city contributed office space,
utilities, and janitorial services valued at $11,533 to the 2009 grant project.
The remaining $35,453 recorded as matching contributions were either
unallowable or were not supported by adequate documentation. Five desks,
five chairs, and five filing cabinets valued at $3,750 and other items of office
equipment valued at $4,037 were not allowable as matching contributions to
the 2009 grant because those items were used as matching contributions to
the 2006 and 2008 grants. Matching contributions totaling $27,666 for
community outreach programs ($12,596), legal services ($2,320), computer
classes ($12,000), and software ($750) were not supported by adequate
documentation such as sign-in logs, attendance records, invoices, or other
supporting documents. The Weed and Seed Site Coordinator told us he
could not produce the records to support these matching contributions.
Consequently, the city could demonstrate that it provided only $11,533 of
the $39,934 required matching contributions. We question the $28,401
($39,934 minus $11,533) in unsupported matching costs for the 2009 Weed
and Seed grant and recommend that OJP remedy the questioned costs.

       2010 Weed and Seed Grant – According to the budget for the 2010
Weed and Seed grant (Grant Number 2010-WS-QX-0013) the city had to
provide $52,302 of the project costs from local sources. However, after the
grant period expired we obtained documentation from OJP showing that the
total federal share of grant project costs was $123,352. Based on the
federal share, the city needed to provide $41,117 in matching contributions
[($123,352 divided by 75 percent) times 25 percent).

       According to the accounting records for the 2010 grant, the city
provided $52,369 in matching contributions to the grant project. We tested
four matching transactions totaling $43,842, which is 83.7 percent of the
matching transactions recorded in the accounting records for the 2010 grant.
We found that the city contributed a total of $23,904, which consisted of
office space, utilities, and janitorial services valued at $11,994, internet
service valued at $2,030, and a local church provided shelter space valued
at $9,880. However, $19,938 in matching contributions for volunteer
services was not supported by adequate documentation. We asked the
Weed and Seed Site Coordinator to provide sign-in logs, attendance records,
or other supporting documentation for these matching cost transactions and

                                      18
he told us he was unable to produce such records. Consequently, the city
could demonstrate that it provided only $23,904 of the $41,117 required
matching contributions. We identify the $17,213 ($41,117 minus $23,904)
in unsupported matching costs for the 2010 Weed and Seed grant as funds
to better use and recommend that OJP remedy these questioned costs.

       As of February 6, 2012, none of the $156,906 awarded under the 2010
grant had been drawn down. As noted previously, OJP staff told us that the
close out process for this grant is on hold pending completion of our audit.
After the closeout is complete, the city may draw down any grant funds that
are due. According to the OJP Financial Guide, any matching costs not
provided must be paid to the DOJ.

Property Management

      According to the OJP Financial Guide, Part III, Chapter 6, grant
recipients must be prudent in the acquisition and management of property
bought with federal funds. Property acquired with federal funds should be
used for the purposes stated in the grant programs and applications,
adequately protected from loss, and the property records should indicate
that the property was purchased with federal funds.

       Neither the city nor the Weed and Seed site kept records of property
items bought with grant funds. A city official told us the city did not keep
records of those items because they were not purchased with city funds. A
police officer working at the Weed and Seed site office prepared and
provided us a list of property items bought with grant funds, but that list
included only the items that were on hand at the time of our audit work.
The list did not include items that may have been lost, stolen, transferred, or
otherwise disposed of.

       To complete our audit testing, we selected a judgmental sample of
equipment purchases from the accounting records for the grants and created
a list of property items using the invoices associated with purchases of such
items. We tested whether Weed and Seed personnel could account for these
items and whether the items were being used for grant purposes.

     As shown in Exhibit 5, we tested 63 property items valued at $38,764,
which is 76.7 percent of the grant funds we identified as being spent on
equipment. Exhibit 5 shows our testing of accountable property items.




                                      19
             Exhibit 5: Testing of Accountable Property Items
                           Charged to the Grants
                                                                            Property
                                      Property              Property
              Grant                                                       Unaccounted
                                     Purchased               Tested
                                                                              For
       2006-WS-Q6-0201                       $20,542            $19,964        $1,631
       2008-WS-QX-0195                       $17,301            $13,067            $0
       2009-WS-QX-0141                            $0                 $0            $0
       2010-WS-QX-0013                        $5,763             $5,733            $0
            Total                           $43,606            $38,764        $1,631
       Source: City of Alexandria records and auditor observation

     We found the following nine property items valued at $1,631 were
unaccounted for.

   •   three spotlights valued at $282 each for a total of $846
   •   three LED flashlights valued at $125 each for a total of $375
   •   one waterproof storage case valued at $110
   •   one television valued at $200, and
   •   one DVD player valued at $100

       We contacted a city official several times about the missing spotlights,
flashlights, and storage case, but we never received a response. The Weed
and Seed Site Coordinator told us that the television and DVD player were
loaned to one of the Weed and Seed grant projects, but the grant project
never returned those items. We recommend that OJP ensure the city
implements procedures to track property items bought with grant funds. We
also recommend that OJP remedy the $1,631 spent on property items that
are unaccounted for.

Grant Reports

Financial Reports

      OJP monitors the financial aspects of grants through quarterly financial
reports that show the federal and local share of grant expenditures,
unexpended grant funds, and any program related income. According to the
OJP Financial Guide, quarterly Financial Status Reports (FSRs) were due 45
days after the end of each quarterly reporting period. Beginning October 1,
2009, the Federal Financial Report (FFR) replaced the FSR. FFRs are due 30
days after the end of each calendar quarter. A final financial report is due
90 days after the end of the grant period.



                                            20
      We reviewed the four most recent financial reports for the 2006, 2008,
and 2009 grant and the two most recent financial reports for the 2010 grant
to determine whether those reports were submitted when due. We found
that 4 of the 14 reports we reviewed were submitted from 3 to 18 days late.
The reports were late because the accountant responsible for submitting the
reports was not able to access OJP’s grants management system to submit
the reports. The accountant is now able to access the grants management
reporting system.

       We also reviewed the accuracy of the last four financial reports for the
2006, 2008, and 2009 grants and the last two financial reports for the 2010
grant. For each of these reports, we compared the federal share of
expenditures reported to OJP to the federal expenditures recorded in the
city’s accounting records. We found that 2 of 14 financial reports we tested
contained what we consider to be significant errors. 8

      For the 2006 grant, in the final financial report for the quarter ended
December 31, 2007, federal expenditures were overstated by $19,804.
According to the accounting records, those expenditures occurred after
December 31, 2007, which is the date the grant ended. As discussed earlier
in the Drawdowns section, we question these expenditures as an
unallowable use of grant funds and recommend that OJP remedy the
$19,804.

      For the 2009 grant, in the financial report for the quarter ended
September 30, 2010, federal expenditures were understated by $1,144.
The accountant told us the $1,144 difference was an error. The error was
corrected in the subsequent financial report. We recommend that OJP
ensure the city’s financial reports submitted to OJP are accurate and
submitted by the due dates.

Progress Reports

      OJP monitors grant performance and accomplishments through the
submission of Categorical Assistance Progress Reports (Progress Reports).
Progress reports are due semiannually on January 30 and July 30. Grantees
are required to submit a final grant progress report within 90 days after the
end of the grant award period. Progress reports must include a comparison
of goals to actual accomplishments for the reporting period, reasons goals
were not met or are not being met, and a corrective action plan to resolve

       8
           Six financial reports had errors of less than $25 when compared to the accounting
records.

                                             21
the problem. Absent timely, complete, and accurate progress reports, OJP
cannot effectively monitor progress toward meeting grant objectives.

       We reviewed the three most recent progress reports for the 2006,
2008, and 2009 grants and the two most recent progress reports for the
2010 grant to determine whether those reports were accurate and whether
they were submitted by the due dates. We found that progress reports
accurately reflected grant program activities; however, the grantee could not
show that it met most of the grant goals and objectives we tested. Also,
5 of 11 reports we reviewed were submitted from 8 to 164 days late. The
late reports are shown in Exhibit 6.

               Exhibit 6: Grant Progress Report Test Results
     Grant               Reporting             Date       Date
                                                                      Days Late
    Number                Period               Due      Submitted
2006-WS-Q6-0201     06/01/06 – 12/31/06    01/30/07      02/07/07          8

                    05/01/08 - 12/31/08    01/30/09      04/02/09         62

2008-WS-QX-0195     01/01/09 – 06/30/09    07/30/09        CND            CND

                    07/01/09 – 10/21/09    01/29/10        CND            CND

                    05/01/09 – 12/31/09    01/30/09      06/29/10         150
2009-WS-QX-0141
                    01/01/10 – 06/30/10    07/30/10      09/10/10         42

2010-WS-QX-0013     01/01/11 – 06/30/11    07/30/11      01/10/12         164
Source: OJP’s Grants Management System

      For the 2008 grant, we could not determine (CND) when two reports
were submitted. The reports are recorded in OJP’s grants management
system, but according to an e-mail from OJP the reports had an “overdue”
status because they had not been “fully submitted.” 9 OJP’s Grant Manager
provided instructions to the grantee on how to submit reports so this issue
would not occur in the future. We recommend that OJP require the city to
implement procedures designed to ensure progress reports are submitted by
the due dates.

Grant Goals and Accomplishments

     Grant goals and accomplishments should be based on measureable
outcomes rather than on counting activities. The Government Performance

      9
         The reports were saved in the Grants Management System but did not appear to
be actually submitted.

                                          22
and Results Act provides a framework for setting goals, measuring progress,
and using data to improve performance. Grantees should establish a
baseline measure and a system for collecting and analyzing data needed to
measure progress.

      To evaluate whether the grant goals and objectives were met, we
selected a judgmental sample of grant goals and objectives for each of the
grants and reviewed the program narrative, and the Weed and Seed Site
Coordinator’s files.

      We found that the city did not meet, or could not show that it met,
most of the grant goals and objectives we tested. However, the Weed and
Seed Site Coordinator’s files for the 2006 grant included two sign-in sheets
that could support some of the grant goals and objectives. One sign-in
sheet listed 13 participants, but the sheet did not include the name of the
event or the date. The other sign-in sheet, dated October 11, 2007, listed
seven participants, but the sheet did not include the name of the event.
Exhibits 7 through 10 show the results of our testing of grant goals and
accomplishments for each of the grants.




                                     23
                 Exhibit 7: Grant Goals and Accomplishments
                      Grant Number 2006-WS-Q6-0201
                                             Was the goal accomplished?
     Goals and Objectives
                                                    Explanation
Increase the number of arrests and     Could Not Determine. The Weed and Seed
prosecution of offenders involved      Site Coordinator provided two sets of statistics
in narcotics and prostitution.         for narcotics arrests. One set showed a
                                       decrease and the other set showed an increase
                                       in drug arrests. The coordinator’s program files
                                       contained no documentation showing an
                                       increase in the number of arrests for
                                       prostitution or number of prosecutions of
                                       narcotics and prostitution offenders.
Establish a safe haven in the target   Partially Met. We reviewed documentation
neighborhood to offer a variety of     showing the Weed and Seed site established a
family support services.               safe haven to provide after school programs,
                                       mentoring, and youth activities. However, the
                                       program files contained no documentation
                                       showing that anyone participated in the
                                       programs and activities. The Weed and Seed
                                       Site Coordinator also told us he had no such
                                       records.
Increase access to supervised          Could Not Determine. The Weed and Seed
affordable childcare for parents       Site Coordinator’s program files contained no
and grandparents.                      documentation to support that this goal was
                                       met. 10
Develop community projects to          Partially Met. We reviewed a list of 18
reclaim empty lots.                    dilapidated buildings, a permit to demolish one
                                       building, and two announcements of events to
                                       clean up the building site. However, the Weed
                                       and Seed Site Coordinator’s program files
                                       contained no documentation such as sign-in
                                       sheets showing that the building was
                                       demolished or that volunteers participated in
                                       the cleanup. The Weed and Seed Site
                                       Coordinator told us he had no such records.
Teach residents how to reduce          Could Not Determine. The program files
property crime.                        contained no documentation to support that this
                                       goal was met.
Source: City of Alexandria




       10
           The Weed and Seed project included a program to provide Home Instruction for
Parents of Preschool Youngsters (HIPPY). The purpose of the HIPPY program was to help
parents with children at greater risk of school failure because of poverty, parents’ lower
levels of education, social isolation, and other factors. Personnel costs charged to the
grants included the cost of a HIPPY representative. However, we saw nothing in the Weed
and Seed site files to support that the HIPPPY program had been implemented.

                                              24
                Exhibit 8: Grant Goals and Accomplishments
                     Grant Number 2008-WS-QX-0195
                                                   Was the goal met?
               Goal
                                                     Explanation
Establish ongoing, two-way,            Met. The Weed and Seed Site Coordinator
communication mechanism                provided a newspaper clipping showing
between residents and community        members of the community involved in a City of
police.                                Alexandria community policing program.
Increase the number of area            Could Not Determine. The Weed and Seed
residents who participate in           Site Coordinator’s program files contained no
programs and events sponsored by       documentation showing there was an increase
the Alexandria Police Department.      in community participation in police sponsored
                                       events.
Increase the level of life enhancing   Could Not Determine. The Weed and Seed
skill building educational programs    Site Coordinator’s program files contained no
to residents. Develop new              documentation showing that this goal was met.
collaborations to encourage more
high school youths to avoid
truancy and complete their
education.
Develop program to remove graffiti     Met. The Weed and Seed Site Coordinator
from the neighborhood that involve     provided a flyer showing the date and time for
youth.                                 the graffiti removal.

Teach residents how to reduce          Partially Met. The Weed and Seed Site
property crime by using Crime          Coordinator provided documentation showing
Prevention Through Environmental       the project implemented a program to teach
Design (CPTED) while promoting         residents to reduce crime. However, the
ways to reduce risk of West Nile       program files contained no documentation
virus.                                 pertaining to reducing the risk of West Nile
                                       virus.
Source: City of Alexandria




                                              25
               Exhibit 9: Grant Goals and Accomplishments 11
                      Grant Number 2009-WS-QX-0141
                                                   Was the goal met?
               Goal
                                                     Explanation
Increase community participation       Could Not Determine. The Weed and Seed
in Weed and Seed programs and          Site Coordinator’s program files contained no
events.                                documentation showing there was an increase
                                       in community participation in Weed and Seed
                                       sponsored events. The Weed and Seed Site
                                       Coordinator told us he had no sign-in logs for
                                       the community events.
Create a program with the Juvenile     Met. The Weed and Seed Site Coordinator hired
Judicial Division in order to detour   a youth advocate and provided documentation
youth from becoming a continuing       showing work performed by the advocate.
part of the judicial system.
Source: City of Alexandria

               Exhibit 10: Grant Goals and Accomplishments
                     Grant Number 2010-WS-QX-0013
                                                   Was the goal met?
               Goal
                                                     Explanation
Attend community and church            Met. The Weed and Seed Site Coordinator
events and make regular visits to      provided agendas and sign-in sheets for
the Boys and Girls club to keep        community meetings facilitated by the Weed
communication open between the         and Seed Safe Streets Coordinator.
residents and the police.
Increase resident’s access to job      Met. The Weed and Seed Site Coordinator
training and employment                provided documentation showing there was a
opportunities.                         job fair for U.S. Census jobs.
Develop new collaborations to          Could Not Determine. The grantee provided
encourage more high school             documentation consisting of a report prepared
youths to avoid truancy and            by an individual paid with grant funds to visit
complete their education.              the homes of troubled youth, but the report did
                                       not support that this goal was met because it
                                       did not indicate that the purpose of the visits
                                       pertained to avoiding truancy and completing
                                       their education.
Source: City of Alexandria

      City officials told us they were concerned about whether the Weed and
Seed projects could deliver the services described in the grant programs and
applications. We recommend that OJP require the city to implement
procedures designed to ensure it meets the goals and objectives of the
grants.


       11
          We only tested five goals from the 2009 and 2010 grants because most of the
other goals for those grants were also included in the goals for the 2006 and 2008 grants.

                                              26
Monitoring Subrecipients

      According to the OJP Financial Guide, Part III, Chapter 9, primary
recipients of grant funds are responsible for monitoring subrecipients to
ensure they fulfill the fiscal and programmatic requirements of the grants.
The primary recipient is responsible for all aspects of the program including
oversight of sub-recipient spending and monitoring program goals and
achievements attributable to the use of grant funds. 12

       We identified 33 independent contractors (subrecipients) hired by the
Weed and Seed Steering Committee to implement grant activities. 13 The
Weed and Seed Site Coordinator told us he monitored contractors’ work by
conducting random site visits, requiring tutors to fill out a daily log of their
activities with each student, and reviewing students’ report cards to assess
whether their grades had improved as a result of the tutoring. To monitor
specialized programs such as the homebuyers training program the site
coordinator told us he reviewed sign-in sheets that were collected for
attendance purposes.

       We reviewed documentation maintained at the Weed and Seed site.
However, we saw no site visit reports, tutoring activity logs, or evidence that
the site coordinator had reviewed students’ report cards to assess
progress. 14 We also saw no sign-in sheets from the homebuyers training
program. Overall, we concluded that the city did not adequately monitor
subrecipients. We recommend that OJP require the city to implement
procedures to monitor subrecipients and maintain documentation of
monitoring activities.



       12
           A city official told us the Weed and Seed Steering Committee made all the hiring
and program decisions and the city just paid the bills. The city tried but was not successful
in finding another organization to act as the fiscal agent for the Weed and Seed grants.
       13
          The independent contractors included 2 site coordinators (current and former),
22 tutors, 2 youth coordinators, 2 coordinators to help citizens re-enter society after they
had been incarcerated, a community activities coordinator, a General Educational
Development (GED) instructor, a health and nutrition instructor, a homebuyers’ trainer, and
a representative to provide home instruction for parents of preschool youngsters.
       14
           Documentation for the 2006 Weed and Seed grant included sign-in sheets for two
events. One sign-in sheet listed the names of 13 participants, but the sheet did not include
a date or the name of the event. The other sign-in sheet, dated October 11, 2007, listed
the names of seven participants, but the sheet did not include the name of the event.



                                             27
Conclusion

       The City of Alexandria complied with requirements pertaining to grant
budget management and control. However, we found weaknesses in the
areas of internal controls, grant drawdowns, grant expenditures, accountable
property, matching requirements, grant reporting, grant goals and
accomplishments, and sub-recipient monitoring. Specifically, we found that
the city:

  •   charged $23,298 in unallowable costs to the grants;

  •   did not use $87,133 in grant funds awarded for three of the grants;

  •   charged $98,359 in unsupported personnel and police overtime costs
      to the grants, including $2,847 in 2010 grant costs the city planned to
      claim for reimbursement from OJP;

  •   did not provide or could not show that it had provided $102,223 in
      grant matching costs, including $17,213 for the 2010 grant for which
      none of the federal funds have been drawn down from OJP;

  •   could not account for $1,631 in property items bought with grant
      funds because it did not have a system for tracking those items;

  •   submitted late and incorrect financial reports to OJP;

  •   submitted late grant progress reports to OJP;

  •   did not meet or could not show that it met most of the grant goals and
      objectives we tested; and

  •   did not adequately monitor subrecipients to ensure they met grant
      requirements.

      Based on our audit results we make 12 recommendations to address
dollar-related findings and 5 recommendations to improve the management
of DOJ grants.




                                      28
Recommendations

      We recommend that OJP:

 1.   Remedy $19,804 in grant costs for Grant Number 2006-WS-Q6-0201
      that were not obligated during the award period.

 2.   Remedy $20,467 in unsupported personnel costs charged to Grant
      Number 2006-WS-Q6-0201.

 3.   Remedy the $4,260 in unsupported personnel costs charged to Grant
      Number 2009-WS-QX-0141.

 4.   Remedy $20,060 in unsupported matching contributions ($17,213),
      independent contractor payments ($2,513) and police overtime costs
      ($334) for Grant Number 2010-WS-QX-0013 before permitting the city
      to draw down any grant funds that are due to them.

 5.   Remedy $3,494 in unallowable costs charged to grant funds for a
      fitness consultant position that was not in the grant budgets
      approved by OJP. The unallowable amount includes $171 charged to
      Grant Number 2008-WS-QX-0195 and $3,323 charged to Grant
      Number 2009-WS-QX-0141.

 6.   Remedy $28,103 in unsupported police overtime charged to Grant
      Number 2006-WS-Q6-0201.

 7.   Remedy $36,000 in unsupported police overtime charged to Grant
      Number 2008-WS-QX-0195.

 8.   Remedy $6,682 in unsupported police overtime charged to Grant
      Number 2009-WS-QX-0141.

 9.   Remedy $26,338 in unsupported matching costs for Grant Number
      2006-WS-Q6-0201.

 10. Remedy $30,271 in unsupported matching costs for Grant Number
     2008-WS-QX-0195.

 11. Remedy $28,401 in unsupported matching costs for Grant Number
     2009-WS-QX-0141.

                                   29
12. Remedy $1,631 in unaccounted for property items for Grant Number
    2006-WS-Q6-0201.

13. Ensure the city implements procedures to track property items bought
    with grant funds.

14. Ensure the city implements procedures to ensure that financial reports
    are accurate and submitted by the due dates.

15. Ensure the city implements procedures to ensure grant progress
    reports are submitted by the due dates.

16. Ensure the city implements procedures to ensure it meets the goals
    and objectives of the grants.

17. Ensure the city implements procedures to monitor subrecipients and
    maintain documentation of monitoring activities.




                                   30
                                                              APPENDIX 1

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether the City of
Alexandria used grant funds for costs that were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants; and whether the city met or was on track to meet
the goals and objectives outlined in the grant programs and applications.

       The objectives of the audit were to determine whether the City of
Alexandria complied with essential grant conditions pertaining to:
(1) internal controls, (2) grant drawdowns, (3) grant expenditures,
(4) budget management and control, (5) matching costs, (6) property
management, (7) financial and grant progress reports, (8) grant goals and
accomplishments, and (9) monitoring subrecipients.

      We conducted our audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered the 2006, 2008, 2009, and 2010 Weed and
Seed grants. We tested compliance with what we consider to be the most
important conditions of the grants. Unless otherwise stated in our report,
the criteria we audit against are contained in the Office of Justice Program’s
Financial Guide, Office of Management and Budget Circulars, and specific
grant program guidance.

      In conducting our audit, we performed sample testing in drawdowns;
grant expenditures, including personnel and other direct costs; financial and
grant progress reports; property management; and grant goals and
accomplishments. In this effort, we employed a judgmental sampling design
to obtain broad exposure to numerous facets of the grants we reviewed,
such as dollar amounts or expenditure category. We selected judgmental
sample sizes for the testing of each grant. This non-statistical sample
design does not allow projection of the test results to the universe from
which the samples were drawn.




                                      31
      In addition, we reviewed the timeliness and accuracy of financial and
grant progress reports and compared performance to grant goals. We did
not assess the reliability of the financial management system as a whole.




                                     32
                                                                    APPENDIX 2

           SCHEDULE OF DOLLAR-RELATED FINDINGS
                       Description                         Amount           Page
Questioned Costs – Unsupported:
  Personnel Costs (no timesheets):
      2006-WS-Q6-0201                                         $20,467        11
      2009-WS-QX-0141                                          $4,260        11
  Police Overtime (no overtime activity reports):
      2006-WS-Q6-0201                                         $28,103        13
      2008-WS-QX-0195                                         $36,000        13
      2009-WS-QX-0141                                          $6,682        13
  Subtotal                                                   $95,512

   Matching Costs (not provided):
      2006-WS-Q6-0201                                         $26,338        16
      2008-WS-QX-0195                                         $30,271        17
      2009-WS-QX-0141                                         $28,401        18
   Subtotal                                                  $85,010

      Total Unsupported Costs                               $180,522

Questioned Costs – Unallowable:
  Costs Obligated After the Grant Ended: 15
      2006-WS-Q6-0201                                         $19,804         9
  Contractor Position Not in the Approved Budget
      2008-WS-QX-0195                                            $171        12
      2009-WS-QX-0141                                          $3,323        12
     Total Unallowable Costs                                 $23,298

Questioned Costs – Other
  Unaccounted for Property Items                               $1,631        20

Funds to Better Use (funds not drawn down):
  Unsupported:
     2010-WS-QX-0013 (matching costs)                         $17,213        19
     2010-WS-QX-0013 (personnel costs)                         $2,513        12
     2010-WS-QX-0013 (police overtime)                           $334        13
     Total Funds to Better Use                               $20,060
     Total Dollar-Related Findings                          $225,511
Source: OIG analysis

      15
          This includes independent contractor payments ($10,800), police overtime
($5,190), and travel expenses ($3,814). The grant ended December 31, 2007. These costs
were obligated during January through March 2008.

                                         33
                                                                    APPENDIX 3

             INDEPENDENT CONTRACTOR PAYMENTS
                NOT SUPPORTED BY TIMESHEETS
                                                Invoice     Check        Check
 Vendor       Vendor Invoice         Invoice
                                                Amount       Date       Number
Grant Number 2006-WS-Q6-0201
  71500      03/08/07-03/28/07       I0314727       $472   13-Apr-07    00857777
  47090          NO DATE             I0308883    $14,000    19-Jan-07   00855124
  47090      03/12/07-03/25/07       I0313964     $1,400   13-Apr-07    00857921
  63600      04/04/06-04/26/06       I0296115       $150   28-Apr-06    00847626
  72540      04/06/08-04/19/08       I0336209     $1,400   25-Apr-08    00868981
  47090      02/12/07-02/25/07       I0312808     $1,400   16-Mar-07    00856932
  47090      04/23/07-05/06/07       I0317128     $1,400   25-May-07    00859181
  70760      10/16/07-10/25/07       I0327230       $120   07-Dec-07    00864663
  63600      02/06/07-02/28/07       I0312182       $125   16-Mar-07    00856777
                                     Subtotal   $20,467
Grant Number 2009-WS-QX-0141
  72540      10/04/09-11/14/09       I0364982     $4,260   20-Nov-09    00885932
                                     Subtotal    $4,260
Grant Number 2010-WS-QX-0013
  72540      02/19/11-03/04/11       I0385191     $1,423   11-Mar-11    00897879
  52420      10/10/10-10/15/10       I0379575        $30   22-Oct-10    00894801
  81060      08/07/10-08/20/10       I0377286       $640   27-Aug-10    00893348
  82410      03/19/11-04/01/11       I0386639       $120   08-Apr-11    00898867
   none      06/26/10-07/09/10         none         $300        none      none
                                     Subtotal    $2,513
Total Unsupported Personnel Costs               $27,240
Source: City of Alexandria records




                                           34
                                                         APPENDIX 4
POLICE OVERTIME PAYMENTS NOT SUPPORTED
        BY DAILY ACTIVITY REPORTS
                        Amount
                                        Amount
           Date        Charged to
                                      Unsupported
                       the Grants
       Grant Number 2006-WS-Q6-0201
        08/31/2006        $496.00              $496.00
        09/30/2006      $1,975.00            $1,975.00
        10/31/2006      $2,310.00            $2,310.00
        11/30/2006      $1,559.00            $1,559.00
        12/31/2006      $1,704.00            $1,704.00
        01/31/2007      $3,086.00            $3,086.00
        02/28/2007      $1,680.00            $1,680.00
        03/31/2007      $3,480.00            $3,480.00
        06/30/2007      $2,914.52            $2,914.52
        07/31/2007      $2,379.02            $2,379.02
        08/31/2007      $2,801.52            $2,801.52
        09/30/2007      $3,717.48            $3,717.48
         Subtotal       $28,102.54         $28,102.54
       Grant Number 2008-WS-QX-0195
        05/31/2008      $1,359.04            $1,359.04
        06/30/2008        $789.58              $789.58
        07/31/2008      $2,241.18            $2,241.18
        08/31/2008      $3,204.39            $3,204.39
        09/30/2008      $3,564.09            $3,564.09
        10/31/2008      $2,356.08            $2,356.08
        11/30/2008      $3,040.39            $3,040.39
        12/31/2008      $4,982.29            $4,982.29
        01/31/2009      $5,621.15            $5,621.15
        02/28/2009      $3,862.72            $3,862.72
        03/31/2009      $4,979.09            $4,979.09
         Subtotal       $36,000.00         $36,000.00
       Grant Number 2009-WS-QX-0141
        02/28/2010      $3,670.36              $141.92
        03/31/2010      $4,310.86              $141.92
        04/30/2010      $4,326.26              $906.28
        05/31/2010      $2,113.62            $2,113.62
        06/30/2010      $2,456.76                   $0
        07/31/2010      $4,307.56              $581.92
        08/31/2010      $5,878.98            $1,747.76
        09/30/2010      $6,051.04            $1,048.92
         Subtotal       $33,115.44          $6,682.34
       Grant Number 2010-WS-QX-0013
        02/28/2011      $2,670.12             $115.04
        03/31/2011      $2,829.44             $219.36
         Subtotal        $5,499.56           $334.40
       Totals          $102,717.54         $71,119.28
      Source: City of Alexandria records




                            35
                                       APPENDIX 5
CITY OF ALEXANDRIA’S RESPONSE TO THE DRAFT AUDIT
                     REPORT





                                                       July 11 ,201 2
                             Via Electroni c: Mail ( Fcrris,I3 ,Polk@usdoj ,gov) and US M ail


          Ferris B. Po lk
          Reg io nal Audit Mana ger
          Onicc o f th e In spect o r General
          Atl anta Regio na l Audit O ffice
          U . . Departme nt o f Justi ce
          75 ' pring lreel, Suite 11 30
          A ll anla , OA 30323



                  The C ity o f A lexandri a ("'Ci ty" ) s ubmit s the fo ll o wi ng in res po nse to th e draft
          audit repo rt pre pared by the;: O ffice of In specto r Ge ne ral , A ud it Divi s io n re garding the
           A rea Fo ur Weed und Seed ("' A rea Four" ) site located in A lexandria, L o ui siana.

           Introducti on :
                    T he d m ft audit repolrt was prepared and se nt to the C ity r A le xandri a, no t the
          Area Fo ur Weed and Seed S teerin g Committee ("S tee rin g Co mmittee H ) who is th e
          gove rnin g body o f Area Fo ur Weed and Seed . Based o n the in adequ acy o f the audi t and
          draft uudit re po rt , the C ity objects to all reco mmend ati o ns cont ained within the dra ft aud it
          re po rt.
                    T he audit purpo rts to assess the ro le o f th e S tee ring Co mmitt ee aga inst the C it y.
          including" ". whe ther th e city met or was o n track to mee t the goals and o bjecti ves
          o utlined in th e gra nt p rogram s and appli cati o ns;' Draft Aile/it Report a l ii (U ,S ,
          Departm ent of Jus ti ce. O ffi ce o f the Inspec to r Genera l, 20 J 2). The Weed und Seed
          s trategy as cod itied in 42 USC 37 I 2 b(a) is to " be planned and implement ed thro ugh and
          under the a us pices of a steering co mm iltce," 4 2 USC 37 12b(b)( I). As such, the audit and
          d ra ft aud it repo rt has bee n perfo mlcd in contrad icti o n o f th e statute and guide lines fo r
          Weed and Seed . Neve rthe less, in a spirit o f coo pe rati o n whil e preserving its rights to
          further res po nd. the ilY add re sses the draft a udi t be lo w .




                                                                                                         A lainna Renee' M ire
                                                                                                        A!)sislal l l Cit y Atto rney
                                                                                                             P Office Box 7 1
                                                                                                              osl
                                                                                          AI(:!xandria, louiS na 7 1309-007 1
                                                                                                             ia
 Jacques M, Roy                                                                   ',,,I (3 I 8) 449.fi046 , l1>x (3 18)4 49·50 19
 Mayor                                                                                  e-mail: alainna.mire@ cilyofa lex.cOIIl




                                                            36

Background of the Area Four Weed and Seed Program :

         The City has been the fi scal agent for the Area Four Weed and Seed in
Alexandria, Louisiana since 2006. The City's role as the fiscal agent was to only receive
the grants from the Community Capacity Development Office ("CCDO") on behalf of the
steering committee and disburse the funds in accordance wi th the approved budgets,
Weed and Seed Strategy at ./9. (Community Capacity Development Office, 20 I 0)
Furthermore, the City was not responsible to cnsure that the goa ls and objectives of the
grants were met as that is a clear function of the steering committee.
                 A Weed and Seed Steering Comminee was responsible for
                 implementing the Weed and Seed strategy, approving the
                 grant budgets, maintaining oversight and direction of a ll
                 expenditures, and completing required reports, Draji Audit
                 Report at i,/ (U.S. Department of Justice, Omce of the
                 Inspector General, 2012).
The C ity at all times performed its role in accordance with the grant award even afte r
contacting the Omce o f the Justice Programs ("'OJP") to terminate its re lationship with
the Steering Comminee due to the Steering Co mmittee ' s lack of ove rsight of the program
and resistance to input from the City. See AlIachmenlS A and B.I The City rece ived
pushback from OJP, who was concerned with the Steering Committee being unable to
secure a new fi scal agent in order to continue to receive grants funds. After receiving
reassurance from OJP that the City would not be held accountable for any liabilities ( real
o r pe rceived) incurred on behalf of the Steering Co mmittee, the City reluctantl y agreed to
be the fi scal agent for the final year of the grant cycle, AIIGchlllel1l C. It was only after the
C ity relayed its concerns to OJP was the Area Four Weed and Seed Program designated
as high ri sk grantee, AIIGchment D, 20/0 Grant Award. The high risk designation
allowed for increased monitoring by OJP and forced the Steering Committee to receive
input from the City. Even after the high ri sk designation, the Weed and Seed Site
Coordinator, who was hired by the Steering Committee, continued to provide late reports
to OJP and did not coordinate efforts to assist in the onsite audit with the City,
Allachment E. il7 globo.
       Based on the aforementioned, the City objects to all recommendations contained
in the draft audit report as the findings are more appropriately alleged against the Steering
Committee, not the C ity.

Response to Findings and Recommendations:
   The Ci ty of Alexandria will respond to each recommendation in the draft audit report
separa te ly.

    1. Remedy $19,804 in grant costs for Grant Number 2006-WS-Q6-020 I that were
       not obligated during the award period.

         Response : The City does not concur with thi s response, but to the extent an
         explanation is required submits that the Area Four Weed and Seed Steering

I Even the U.S. Attorney for the Western District of Louisiana took notice of the Steeri ng Committee's lack
of effecti veness to perform irs functions under the program. (Sec Attachment FN)


                                                                                                          2




                                                     37

   Committee is the best source for response. All requests for grant closeout
   extensions were requested by the Weed and Seed Site Coordinator.

2. Remedy $20,467 in unsupported personnel costs charged to Grant Number 2006-
   WS-Q6-020 1.

   Response: The City does not concur with thi s response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. Furthermore, all timesheets submitted
   were in accordance w ith City established practice and procedure for timekee ping.
   See Allachmenl F.

3. Remedy the $4,260 in unsupported personnel costs charged to Grant Number
   2009-WS-QX-O 141 .

   Response: The City does not concur with this response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. Furthermore, all timesheets submitted
   were in accordance with City established practice and procedure for timekeeping.
   See Allachment G.

4. Remedy $20,060 in unsupported matching contributions ($ 17,2 13), independent
   contractor payments ($2,5 13) and police overtime costs ($334) for Grant Number
   20 10-WS-QX-001 3 before permilting the city to draw down any grant funds due
   to them.

   Response: The City does not concur with thi s response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for respOllse. The City further submits that all
   timesheets submitted were in accordance with City establi shed practice and
   procedure for timekeeping. See Attachment H.

5. Remedy $3,494 in unallowable costs charged to grant funds for a Fitness
   Consultant position that was not in the grant budgets approved by OlP. The
   unallowable amount includes $171 charged to Grant Number 2008- WS-QX-01 95
   and $3 ,323 charged to Grant Number 2009-WS-QX-OI41.

   Response: The City does not concur with thi s response, but to the extcnt an
   cxplanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. The Area Four Weed and Seed
   Steering Committee prepared the Area Four budget and presented documentation
   to the City for payment for expenses authorized by the Area Four Weed and Seed
   Steering Committee and/or Site Coordinator.




                                                                                   3




                                       38

6. Remedy $28, I 03 in unsupported police overtime charged to Grant Number 2006-
   WS-QX-020 1.

   Response: The City does not concur with thi s response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. Furthermore. all timesheets submit1ed
   were in accordance with City established practice and procedure for timekeeping
   and maintained in accordance with OJP Financial Guidelines retention policy of
   three years from the date of grant close out, OCFO 20 II Financial Guideline at
   89. (U .S. Departmenlt of Justice, Office of Justice Programs, Office of the Chief
   Financial Officer, 2011) The 2006-WS-QX-0201 grant closeout was December
   31 , 2007, as such all records were to be maintained until December 3 1, 20 10. As
   that date has passed the City's records as presented are the best evidence in
   accordance with City established practice and procedure for timekeeping. See
   Allachmenr I.

7. Remedy $36,000 in unsupported police overtime charged to 2008-WS-QX-0 195.

   Response: The City does not concur with this response, but to the extent an
   explanation is requir"d the City submits that Area Four Weed and Seed Steering
   Committee' is the best source for response due to its function as the governing
   body and entity responsible for creating the program budget. The City further
   responds and attaches Alexandria Police Department overtime records for the
   period in question. Furthermore, all timesheets submitted were in accordance with
   City established practice and procedure for timekeeping. See Allachmenl J.

8. Remedy $6,682 in unsupported police overtime charged to Grant Number 2009-
   WS-QX-0141.

   Response: The City does not concur with thi s response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response due to its function as the governing
   body and entity responsible for creating the program budget. The City further
   responds that all Akxandria Police Department timesheets submitted were in
   accordance with City established practice and procedure for timekeeping. See
   A ffachmen( K.



9. Remedy $26,338 in unsupported matching costs for Grant Number 2006- WS-QX-
   0201.

   Response: T he City does not concur with this response, but to the ex tent an
   explanation is rcquiircd submits that Area Four Weed and Seed Steering
   Committee is the b<:st source for response. The Area Four Weed and Seed
   Steering Committee prepared the Area Four budget and presented documentation



                                                                                   4




                                       39

   to the City for payment for expenses authorized by the Area Four Weed and Seed
   Steering Committee and/or Site Coordinator. Furthermore, the Area Four Site
   Coordinator is the individual charged wi th the duty to maintain all records with
   regards to the Area Four Program.

10. Remedy $30,271 in unsupported matching costs for 2008-WS-QX-0195.

   Response: The City docs not concur with this response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. The Area Four Weed and Seed
   Steering Committee prepared the Area Four budget and presented documentation
   to the City for payment for expenses authorized by the Area Four Weed and Seed
   Steering Committee and/or Site Coordinator. Furthennore, the Area Four Site
   Coordinator is the individual charged with the duty to maintain all records with
   regards to the Area Four Program.

II. Remedy $28,40 1 in unsupported matching costs lor Number 2009-WS-QX-0141.

   Response: The City does not concur with this response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best Source for response. The Area Four Weed and Seed
   Steering Committee prepared the Area Four budget and presented documentation
   to the City for payment for expenses authori zed by the Area four Weed and Seed
   Sleering Committee andlor Site Coordinator. Furthermore, the Area Four Site
   Coordinator is the individual charged with the duty to maintain all records with
   regards to the Area Four Program.

12. Remedy $1 ,631 in unaccounted for property items tor Grant Number 2006-WS­
    QX-0201.

   Response: The City does not concur with thi s response, but to the extent an
   explanation is required submi ts that Area Four Weed and Seed Steering
   Committee is the best source for response. Additionally, all property was
   purchased during the 2006-WS-QX-020 I grant which had a closeout date of
   December 31 , 2007. As such all records were to be maintained in accordance
   with OJP Financial Guidelines retention policy of three years from the "date of
   disposition, replacement, or transfer at the discretion of the awarding agency",
   OCFO 2011 Financial Guide at 53 (U .S. Department of Justice, Office of Justice
   Programs, Office of the Chief Financial Officer, 20 II). Furthennore, the City
   submits that all; or in the alternative, a majority of the property purchased for the
   Weed portion of the program has been accounted for.




                                                                                      5




                                         40

13. Ensure the city implements procedures to track property items bought with grant
   fund s.

   Response: The City does not concur with this response, but to the extent an
   explanat ion is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. Furthermore, the City tracks all items
   purchased wi th grant funds and maintained under the control of the City, unlike
   property items purchased by the Area Four Weed and Seed Steering Committee
   andlor Site Coordinator which is to be accounted for by the Area Four Weed and
   Seed Steering Co mmittee andlor Site Coord inator.

14. Ensure the city implements procedures to ensure that financial reports are
    accurate and submitted by the due dates.

   Response: The City does not concur with this response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. The Weed and Seed Site Coordinator
   is the individual charged with ensuring all tinancial reports are accurate and
   submined by the due date. The City adheres to all reporting guidelines imposed
   on it by all agencies or regulators whether federal or state.

IS. Ensure the city implements procedures to ensure grant progress reports are
    submitted by the due dates.

   Response: The City does not concur with this response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best sourc e for response. The Weed and Seed Site Coordinator
   is the individual charged with ensuring all grant reports are submitted by the due
   date. The City adheres to all guidelines imposed on it by all agencies or regulators
   whether federal or state.

16. Ensure the city implements procedures to ensure it meets the goals and objectives
    of the grants.

   Response: The City does not concur with this response, but to the extent an
   explanation is required submits that Area Four Weed and Seed Steering
   Committee is the best source for response. The Weed and Seed Steering
   Committee and Site Coordinator are charged with ensuring all goals and
   objectives of the program arc met. The City adheres to all gu idelines imposed on
   it by all agencies or regulators whether federal or state in its receipt of grant
   awards. The City further submi ts that all City grant applications and awards are
   housed with the City staff within the City executive staff.




                                                                                     6




                                        41

    17. Ensure the city implements procedures to monitor sub recipients and maintain
        documentation of monitoring activities.

       Response: The City does not concur with this response, but to the extent an
       explanation is required submits that Area Four Weed and Seed Steering
       Commillee is the best source for response. The Weed and Seed Steering
       Committee and Site Coordinator are charged with monitoring and maintaining
       documentation of sub recipients under the Weed and Seed Program . The City
       further submits that through its Community Services and Legal Divisions all
       cooperative endeavor agreements for receipt of City services or property is
       monitored and records maintained.

Conclusion:

         The City takes pride in its community and supports all programs to ensure the
safety of its citizens. Because of its goa l of ensuring a crime free City where all citizens
can thri ve, the City created SafeAlex. Sa/eAlex is an innovative program using best
practices to combat crime and empower neighborhoods. Although having the same
common goal as Weed and Seed, it is vastly different in its implementation. The Weed
and Seed strategy as developed placed more responsibility and authority on the citizens
of Area Four than the City. As such, the strategy was not able to reach its full potential
within Area Four. The City received pushback from the Steering Commillee, who did not
want to heed the advice or help of the City in implementing the Weed and Seed strategy.
As such, the City's role was limited to strictly that of fi scal agent for the program. As the
fi scal agent the City' S sale responsibility was to disburse funds in accordance with the
OJP approved budgets. After performing its function as fi scal agent in a prudent manner,
Office of Inspector General, Audit Division has submitted a number of recommendations
aga inst the City, not the Steering Commillee. The City objects to all recommendations as
they have been erroneously levied against the City.

        The City appreciates the opportunity to comment on the draft audit report and
articulate its concerns. Should you need any additional information, please contact
Alainna R. Mire at 318-449-5015.




                                                                                            7




                                              42

cc:   Linda Tay lor, US DOJ, OJP (Linda.Taylor2@usdo j.gov)
      Jacques M. Roy, Mayor
      Charl es E. Johnso n, Jr., City Attorney




                                                              8




                                        43

                                                                              APPENDIX 6

             OFFICE OF JUSTICE PROGRAMS’ RESPONSE
                  TO THE DRAFT AUDIT REPORT

                                                    U.S. Department of Justice

                                                    Office of Justice Programs

                                                  Office of Audit, Assessment, and Management



                                                  Washington, D.C. 20531




July 16, 2012


MEMORANDUM TO:                Ferris B. Polk
                              Regional Audit Manager
                              Atlanta Regional Audit Office
                              Office of the Inspector General

                               /s/
FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Office of Justice Programs
                              Grants Awarded to the City of Alexandria, Louisiana

This memorandum is in reference to your correspondence, dated June 12, 2012, transmitting the
above-referenced draft audit report for the City of Alexandria (City). We consider the subject
report resolved and request written acceptance of this action from your office.

We received a copy of the City’s response to the draft audit report, dated July 11, 2012, in which
the City states that they are not responsible for the recommendations cited in the report. The
Office of Justice Programs (OJP) does not agree with the City’s assertion that they are not
responsible for the audit findings. Since the City is the direct recipient of the Weed and Seed
grant funds, they are ultimately responsible for administering these awards.




                                               44
While the Steering Committee may handle the day-to-day operations of the Weed and Seed
program, the City, as the grantee of record, is charged with oversight of the grants, which
includes, but is not limited to: properly accounting for grant funds; submitting fiscal and program
reports, as required; and addressing audit and/or monitoring issues. Accordingly, OJP will work
with the City to ensure that appropriate corrective actions are taken to address the audit report
findings.

The draft audit report contains 17 recommendations, $205,451 in questioned costs, and $20,060
in funds to better use. The following is OJP’s analysis of the draft audit report recommendations
and questioned costs. For ease of review, the recommendations are restated in bold and are
followed by our response.

1.     We recommend that OJP remedy the $19,804 in questioned costs for grant number
       2006-WS-Q6-0201 that were not obligated during the award period.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $19,804 in questioned costs, related to expenditures obligated after the award period. If
       adequate documentation cannot be provided, we will request that the City return the
       funds to the U.S. Department of Justice (DOJ); adjust their accounting records to remove
       the costs; and submit a revised final Federal Financial Report (FFR) for grant number
       2006-WS-Q6-0201.

2.     We recommend that OJP remedy the $20,467 in unsupported personnel costs
       charged to grant number 2006-WS-Q6-0201.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $20,467 in questioned costs related to unsupported personnel costs. If adequate
       documentation cannot be provided, we will request that the City return the funds to the
       DOJ; adjust their accounting records to remove the costs; and submit a revised final FFR
       for award number 2006-WS-Q6-0201.

3.     We recommend that OJP remedy the $4,260 in unsupported personnel costs
       charged to grant number 2009-WS-QX-0141.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $4,260 in questioned costs related to unsupported personnel costs. If adequate
       documentation cannot be provided, we will request that the City return the funds to the
       DOJ; adjust their accounting records to remove the costs; and submit a revised final FFR
       for award number 2009-WS-QX-0141.

4.     We recommend that OJP remedy the $20,060 in unsupported matching
       contributions ($17,213), independent contractor payments ($2,513), and police
       overtime costs ($334) for grant number 2010-WS-QX-0013, before permitting the
       City to draw down any grant funds that may be due to them.



                                               45
     OJP agrees with the recommendation. We will coordinate with the City to remedy the
     $20,060 in funds for better use related to unsupported matching contributions,
     independent contractor payments, and police overtime costs. If adequate documentation
     cannot be provided, we will request that the City adjust their accounting records to
     remove the costs; and submit a revised FFR for award number 2010-WS-QX-0013.
     Additionally, the City may be required to reduce future drawdowns from grant number
     2010-WS-QX-0013, or return funds to the DOJ.

5.   We recommend that OJP remedy the $3,494 in unallowable costs charged to grant
     funds for a Fitness Consultant position that was not in the grant budgets approved
     by OJP. The unallowable amount includes $171 charged to grant number
     2008-WS-QX-0195 and $3,323 charged to grant number 2009-WS-QX-0141.

     OJP agrees with the recommendation. We will coordinate with the City to remedy the
     $3,494 in questioned costs, related to unauthorized charges to grant numbers
     2008-WS-QX-0195 and 2009-WS-QX-0141. If adequate documentation cannot be
     provided, we will request that the City return the funds to the DOJ; adjust their
     accounting records to remove the costs; and submit a revised FFR for each grant.

6.   We recommend that OJP remedy the $28,103 in unsupported police overtime
     charged to grant number 2006-WS-Q6-0201.

     OJP agrees with the recommendation. We will coordinate with the City to remedy the
     $28,103 in questioned costs related to unsupported police overtime payments. If
     adequate documentation cannot be provided, we will request that the City return the
     funds to the DOJ; adjust their accounting records to remove the costs; and submit a
     revised final FFR for award number 2006-WS-Q6-0201.

7.   We recommend that OJP remedy the $36,000 in unsupported police overtime
     charged to grant number 2008-WS-QX-0195.

     OJP agrees with the recommendation. We will coordinate with the City to remedy the
     $36,000 in questioned costs related to unsupported police overtime payments. If
     adequate documentation cannot be provided, we will request that the City return the
     funds to the DOJ; adjust their accounting records to remove the costs; and submit a
     revised final FFR for award number 2008-WS-QX-0195.

8.   We recommend that OJP remedy the $6,682 in unsupported police overtime
     charged to grant number 2009-WS-QX-0141.

     OJP agrees with the recommendation. We will coordinate with the City to remedy the
     $6,682 in questioned costs related to unsupported police overtime payments. If adequate
     documentation cannot be provided, we will request that the City return the funds to the
     DOJ; adjust their accounting records to remove the costs; and submit a revised final FFR
     for award number 2009-WS-QX-0141.


                                            46
9.     We recommend that OJP remedy the $26,338 in unsupported matching costs for
       grant number 2006-WS-Q6-0201.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $26,338 in questioned costs related to unsupported matching costs. If adequate
       documentation cannot be provided, we will request that the City adjust their accounting
       records to remove the costs; and submit a revised final FFR for award number
       2006-WS-Q6-0201. Additionally, unless the City meets the matching requirement for
       this award, they may be required to return Federal funds to the DOJ.

10.    We recommend that OJP remedy the $30,271 in unsupported matching costs for
       grant number 2008-WS-QX-0195.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $30,271 in questioned costs related to unsupported matching costs. If adequate
       documentation cannot be provided, we will request that the City adjust their accounting
       records to remove the costs; and submit a revised final FFR for award number
       2008-WS-QX-0195. Additionally, unless the City meets the matching requirement for
       this award, they may be required to return Federal funds to the DOJ.

11.    We recommend that OJP remedy the $28,401 in unsupported matching costs for
       grant number 2009-WS-QX-0141.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $28,401 in questioned costs related to unsupported matching costs. If adequate
       documentation cannot be provided, we will request that the City adjust their accounting
       records to remove the costs; and submit a revised final FFR for award number
       2009-WS-QX-0141. Additionally, unless the City meets the matching requirement for
       this award, they may be required to return Federal funds to the DOJ

 12.   We recommend that OJP remedy the $1,631 in unaccounted property items charged
       to grant number 2006-WS-Q6-0201.

       OJP agrees with the recommendation. We will coordinate with the City to remedy the
       $1,631 in questioned costs related to property items which were not properly tracked. If
       adequate documentation cannot be provided, we will request that the City return the
       funds to the DOJ; adjust their accounting records to remove the costs; and submit a
       revised final FFR for award number 2006-WS-Q6-0201.

 13.   We recommend that OJP require the City to implement procedures to track
       property items bought with grant funds.




                                              47
       OJP agrees with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that the City adequately tracks property items
       purchased with grant funds.

14.    We recommend that OJP require the City to implement procedures which ensure
       that financial reports are accurate and submitted by the due dates.

       OJP agrees with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that financial reports are accurate and submitted by
       the due dates.

15.    We recommend that OJP require the City to implement procedures which ensure
       grant progress reports are submitted by the due dates.

       OJP agrees with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that grant progress reports are submitted by the due
       dates.

16.    We recommend that OJP require the City to implement procedures which ensure it
       meets the goals and objectives of the grants.

       OJP agrees with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that the City meets the goals and objectives for each
       of its grants.

17.    We recommend that OJP require the City to implement procedures to monitor
       subrecipients and maintain documentation of monitoring activities.

       OJP agrees with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that the City monitors its subrecipients and
       maintains documentation of monitoring activities.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management


       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance



                                               48
      Amanda LoCicero
      Audit Liaison
      Bureau of Justice Assistance

cc:   Cory Randolph
      Grant Program Specialist
      Bureau of Justice Assistance

      Louise M. Duhamel, Ph.D.
      Acting Assistant Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20121017




                                            49
                                                              APPENDIX 7

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The Office of the Inspector General (OIG) provided a draft audit report
to the City of Alexandria and the Office of Justice Programs (OJP). The city’s
response is incorporated in Appendix 5 and OJP’s response is incorporated in
Appendix 6. With its response, the city also provided lengthy attachments
that are not included in this final report. The report contains 17
recommendations.

Analysis of the City’s Response to the Draft Report

      In its response to the draft report, the City of Alexandria disagreed
with all the recommendations and stated that: (1) the audit and draft report
are inadequate because the report was sent to the city, not the Area Four
Weed and Seed Steering Committee that governs the Weed and Seed area;
(2) the city’s role as the fiscal agent was only to receive grants on behalf of
the Steering Committee and disburse the funds in accordance with the
approved budgets; (3) the city was not responsible for ensuring that grant
goals and objectives were met; (4) the audit was performed in contradiction
to the statute and guidelines for Weed and Seed because of the steering
committee’s role, and (5) the city had received assurances from OJP that it
would not be held accountable for any liabilities incurred on behalf of the
Weed and Seed Steering Committee. We provide the following reply to
these statements before discussing the city’s specific responses to each of
our recommendations and the actions necessary to close those
recommendations

       The grant award documents designate the city as the grantee and the
Special Conditions attached to the award require the city to comply with the
financial and administrative requirements set forth in the OJP Financial
Guide. The OJP Financial Guide states that grantees are responsible for all
fiscal and programmatic requirements of the grants. The Code of Federal
Regulations, Part 28, §66.40, also states that grantees are responsible for
managing the day-to-day operations of grant supported activities and must
monitor those activities to assure compliance with applicable federal
requirements and that performance goals are being achieved. The Inspector
General Act authorizes the OIG to audit all DOJ programs, grants, contracts,
and operations, including whether grantees achieved program goals and


                                      50
objectives. In addition, our audit does not contradict the Weed and Seed
statute that the city cited in its response since this audit compliments the
planning and implementation of the Weed and Seed program by providing
an objective assessment for overseers of the program’s implementation and
adherence to requirements. Further, grant regulations’ requirements for
program oversight bodies do not exclude those grants from audit and do not
interfere with our responsibility for ensuring that grants are effectively and
efficiently implemented in accordance with grant terms and conditions. The
city provided no documentation in its response supporting an OJP assurance
that the city would not be held accountable for any liabilities incurred by the
Weed and Seed Steering Committee. The response did contain copies of e-
mail exchanged with OJP demonstrating the city’s reluctance to enter into
the 2010 grant agreement. However, the city’s Assistant Director of Finance
subsequently signed the 2010 grant acceptance document agreeing on
behalf of the city to comply with all grant requirements.

       In its response, the city also included documentation we requested
during the audit but that was not previously provided to us pertaining to
grant expenditures. We considered these additional materials in analyzing
the city’s response to the recommendations. Our analysis of the city’s and
OJP’s responses to each recommendation are discussed below under
Summary of Actions Necessary to Close the Report.

Analysis of OJP’s Response to the Draft Report

      In its response to the draft report, OJP agreed with all the
recommendations and stated that it will work with the city to ensure that
appropriate corrective actions are taken to address the audit report. OJP
disagreed with the city’s assertion that it is not responsible for the audit
findings. OJP’s response stated that the city is the direct recipient of the
grant and is responsible for administering the awards including properly
accounting for grant funds, submitting required reports, and addressing
audit issues. All recommendations are resolved based on OJP’s agreement
to take appropriate corrective action.

Summary of Actions Necessary to Close the Report

      Recommendation Number

1.    Resolved. We recommended that OJP remedy $19,804 in questioned
      costs for Grant Number 2006-WS-Q6-0201 that were not obligated
      during the award period.


                                      51
     The city did not concur with the recommendation and stated that the
     Weed and Seed Steering Committee is the best source for a response
     because all requests for grant extensions were requested by the Weed
     and Seed Site Coordinator. However, the city is responsible for
     meeting the fiscal and programmatic requirements of the grants and
     addressing audit issues.

     OJP concurred with our recommendation and stated that it will
     coordinate with the city to remedy the questioned costs. This
     recommendation can be closed when the $19,804 has been remedied.

2.   Resolved. We recommended that OJP remedy $20,467 in
     unsupported personnel costs charged to Grant Number 2006-WS-Q6-
     0201. At the time of our audit, these costs were not supported by
     timesheets. The OJP Financial Guide requires grantees to maintain
     time and attendance records for all individuals paid with grant funds,
     including consultants.

     The city did not concur with the recommendation and stated that all
     timesheets submitted were in accordance with the city’s established
     practice and procedure for timekeeping. However, as presented in the
     body of our audit report, it was the contractors’ practice to maintain
     timesheets in order to support the costs charged to the grant. While
     we were provided support for some of the charges, we did not find
     adequate support for those charges we questioned. As a result, we
     disagree with the city’s contention that it kept timesheets in
     accordance with the established practice.

     Along with its response, the city provided a timesheet that appears to
     support $120 (Invoice I0327230) of the amount we questioned. This
     timesheet was not provided to us during the audit. The city did not
     provide timesheets for the remaining $20,347.

     OJP concurred with our recommendation and stated that it will
     coordinate with the city to remedy the questioned costs. This
     recommendation can be closed when OJP agrees that $120 of the
     question cost has been remedied and the remaining $20,347 has also
     been remedied.

3.   Resolved. We recommended that OJP remedy $4,260 in unsupported
     personnel costs charged to Grant Number 2009-WS-QX-0141. At the
     time of our audit, these costs were not supported by timesheets.


                                    52
     The city did not concur with the recommendation and stated that all
     timesheets submitted were in accordance with the city’s established
     practice and procedure for timekeeping. However, no timesheets
     pertaining to this recommendation have been provided to us.

     OJP concurred with our recommendation and stated that it will
     coordinate with the city to remedy the questioned costs. This
     recommendation can be closed when the $4,260 has been remedied.

4.   Resolved. We recommended that OJP remedy $20,060 in
     unsupported matching contributions ($17,213), independent
     contractor payments ($2,513), and police overtime costs ($334) for
     Grant Number 2010-WS-QX-0013, before permitting the city to draw
     down any grant funds that may be due to them.

     The city did not concur with the recommendation and stated that all
     timesheets submitted were in accordance with the city’s established
     practice and procedure for timekeeping. Along with its response, the
     city provided timesheets that appeared to support $970 of the
     independent contractor payments we questioned and police activity
     reports to support the $334 in police overtime costs we questioned.
     The timesheets the city provided were for Invoice Numbers I0379575
     for $30, I0377286 for $640, and I0375451 for $300. These
     timesheets and police activity reports were not provided to us during
     the audit.

     OJP concurred with our recommendation and stated that it will
     coordinate with the city to remedy the questioned costs. This
     recommendation can be closed when OJP agrees that $1,274 ($970
     plus $334) of questioned costs has been remedied and when the
     $18,756 in unsupported matching contributions ($17,213) and the
     remaining independent contractor payments ($1,543) have also been
     remedied.

5.   Resolved. We recommended that OJP remedy $3,494 in unallowable
     costs charged to grant funds for a Fitness Consultant position that was
     not in the grant budgets approved by OJP. The unallowable amount
     included $171 charged to Grant Number 2008-WS-QX-0195 and
     $3,323 charged to Grant Number 2009-WS-QX-0141.




                                    53
     The city did not concur with the recommendation and stated that the
     Weed and Seed Steering Committee is the best source for a response
     because it prepared the grant budget and presented documentation to
     the city for payment of expenses authorized by the Weed and Seed
     Steering Committee. However, the city is responsible for meeting the
     fiscal and programmatic requirements of the grants and addressing
     audit issues.

     OJP concurred with our recommendation and stated that it will
     coordinate with the city to remedy the questioned costs. This
     recommendation can be closed when the $3,494 has been remedied.

6.   Resolved. We recommended that OJP remedy $28,103 in
     unsupported police overtime charged to Grant Number 2006-WS-Q6-
     0201.

     In its response the city provided police activity reports that appear to
     support the $28,103 in police overtime we questioned. These
     documents were not provided to us during the audit. However, the
     city did not concur with our recommendation and stated that it
     followed OJP’s record retention policy of 3 years from the date of grant
     closeout. The city misinterpreted the retention requirement, which
     states that recipients must retain records “AT LEAST 3 YEARS following
     notification by the grant authorizing agency that the grant has been
     programmatically and fiscally closed OR at least 3 years following the
     closure of its audit report covering the entire award period, whichever
     is later.” The applicable single audit report was not issued until
     November 10, 2008, and 3 years after that was November 10, 2011.
     We notified the city of our audit in April 2011; therefore it should have
     retained supporting documents pertaining to all grant activities for our
     audit.

     OJP concurred with our recommendation and said it will coordinate
     with the city to remedy the questioned costs. This recommendation
     can be closed when OJP agrees that the $28,103 has been remedied.

7.   Resolved. We recommended that OJP remedy $36,000 in
     unsupported police overtime charged to Grant Number 2008-WS-QX-
     0195.

     The city did not concur with our recommendation and stated that the
     Weed and Seed Steering Committee was the best source for a


                                     54
     response and all timesheets submitted were in accordance with the
     city’s established practice and procedure for timekeeping. Although
     the city did not concur with our recommendation, with its response the
     city provided police activity reports that appear to support the $36,000
     in police overtime we questioned. These documents were not provided
     to us during the audit.

     OJP agreed with our recommendation and said it will coordinate with
     the city to remedy the questioned costs. This recommendation can be
     closed when OJP agrees that the $36,000 has been remedied.

8.   Resolved. We recommended that OJP remedy $6,682 in unsupported
     police overtime charged to Grant Number 2009-WS-QX-0141.

     The city did not concur with our recommendation and stated that the
     Weed and Seed Steering Committee was the best source for a
     response. The city also stated that all timesheets submitted were in
     accordance with the city’s established practice and procedure for
     timekeeping. Although the city did not concur with our
     recommendation, with its response the city provided police activity
     reports that appear to support the $6,682 in police overtime we
     questioned. These documents were not provided to us during the
     audit.

     OJP agreed with our recommendation and said it will coordinate with
     the city to remedy the questioned costs. This recommendation can be
     closed when OJP agrees that the $6,682 has been remedied.

9.   Resolved. We recommended that OJP remedy $26,338 in
     unsupported matching costs for Grant Number 2006-WS-Q6-0201.

     The city did not concur with our recommendation and stated that the
     Weed and Seed Steering Committee was the best source for a
     response because it prepared the grant budget, presented
     documentation to the city for payment of expenses authorized by the
     Steering Committee, and the Weed and Seed Site Coordinator is
     responsible for maintaining the records. However, the city is
     responsible for meeting the fiscal and programmatic requirements of
     the grants and addressing audit issues.




                                    55
      OJP concurred with our recommendation and stated that it will
      coordinate with the city to remedy the questioned costs. This
      recommendation can be closed when the $26,338 has been remedied.

10.   Resolved. We recommended that OJP remedy $30,271 in
      unsupported matching costs for Grant Number 2008-WS-QX-0195.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Steering Committee was the best source for a
      response because it prepared the grant budget, presented
      documentation to the city for payment of expenses authorized by the
      Steering Committee, and the Weed and Seed Site Coordinator is
      responsible for maintaining the records. However, the city is
      responsible for meeting the fiscal and programmatic requirements of
      the grants and addressing audit issues.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to remedy the questioned costs. This
      recommendation can be closed when the $30,271 has been remedied.

11.   Resolved. We recommended that OJP remedy $28,401 in
      unsupported matching costs for Grant Number 2009-WS-QX-0141.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Steering Committee was the best source for a
      response because it prepared the grant budget, presented
      documentation to the city for payment of expenses authorized by the
      Steering Committee, and the Weed and Seed Site Coordinator is
      responsible for maintaining the records. However, the city is
      responsible for meeting the fiscal and programmatic requirements of
      the grants and addressing audit issues.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to remedy the questioned costs. This
      recommendation can be closed when the $28,401 has been remedied.

12.   Resolved. We recommended that OJP remedy $1,631 in unaccounted
      property items charged to Grant Number 2006-WS-Q6-0201.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Steering Committee was the best source for a
      response. The city also stated that all property was purchased from


                                    56
      the 2006 grant, which the city believed had a closeout date of
      December 31, 2007. However, as explained above for
      Recommendation Number 6, the city was required to retain the
      records pertaining to this grant for audit purposes. Further, the city
      stated that it complied with the OJP Financial Guide record retention
      policy of 3 years from the date of disposition, replacement, or transfer.
      However, because neither the city nor the Weed and Seed Site
      Coordinator tracked these items, the date of disposition, replacement,
      or transfer is unknown and the items may still be in use.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to remedy the questioned costs related to the
      property items that were not properly tracked. This recommendation
      can be closed when the questioned costs have been remedied.

13.   Resolved. We recommended that OJP ensure that the city
      implements procedures to track property items bought with grant
      funds.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Steering Committee was the best source for a
      response. The city also stated that it tracks all property items
      purchased with grant funds maintained under city control, unlike
      property items purchased by the Weed and Seed Steering Committee.
      However, the city is responsible for meeting the fiscal and
      programmatic requirements of the grants, including the requirement to
      track property items bought with grant funds and addressing audit
      issues.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to obtain a copy of procedures implemented to
      ensure that the city adequately tracks property items purchased with
      grant funds. This recommendation can be closed when we review
      documentation showing the city has implemented the procedures.

14.   Resolved. We recommended that OJP ensure that the city
      implements procedures to ensure that financial reports are accurate
      and submitted by the due dates.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Site Coordinator is the individual charged with
      ensuring all grant reports are submitted by the due date. However,


                                      57
      the city is responsible for meeting the fiscal and programmatic
      requirements of the grants, including the submission of timely and
      accurate financial and grant progress reports and addressing audit
      issues.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to obtain a copy of its procedures
      implemented to ensure that financial reports are accurate and
      submitted by the due dates. This recommendation can be closed when
      we review documentation showing the city has implemented the
      procedures.

15.   Resolved. We recommended that OJP ensure that the city
      implements procedures to ensure that grant progress reports are
      submitted by the due dates.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Site Coordinator is the individual charged with
      ensuring all grant reports are submitted by the due date. However,
      the city is responsible for meeting the fiscal and programmatic
      requirements of the grants, including the submission of timely and
      accurate financial and grant progress reports and addressing audit
      issues.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to obtain a copy of its procedures
      implemented to ensure that grant progress reports are submitted by
      the due dates. This recommendation can be closed when we review
      documentation showing the city has implemented the procedures.

16.   Resolved. We recommended that OJP ensure that the city
      implements procedures to ensure it meets the goals and objectives of
      the grants.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Steering Committee and Site Coordinator are charged
      with ensuring all goals and objectives of the program are met.
      However, the city is responsible for all fiscal and programmatic
      requirements of the grants, including ensuring that performance goals
      are being achieved.




                                     58
      OJP concurred with our recommendation and stated that it will
      coordinate with the city to obtain a copy of procedures implemented to
      ensure that the city meets the goals and objectives for each of its
      grants. This recommendation can be closed when we review
      documentation showing the city has implemented the procedures.

17.   Resolved. We recommended that OJP ensure the city implements
      procedures to monitor subrecipients and maintain documentation of
      monitoring activities.

      The city did not concur with our recommendation and stated that the
      Weed and Seed Steering Committee and Site Coordinator are
      responsible for monitoring and maintaining documentation of
      subrecipients under the Weed and Seed Program. However, the city is
      responsible for all fiscal and programmatic requirements of the grants,
      including monitoring of subrecipients, maintaining documentation of
      monitoring activities, and addressing audit issues.

      OJP concurred with our recommendation and stated that it will
      coordinate with the city to obtain a copy of procedures implemented to
      ensure that the city monitors its subrecipients and maintains
      documentation of monitoring activities. This recommendation can be
      closed when we review documentation showing the city has
      implemented the procedures.




                                     59
